<html>
<title> - PAKISTAN AND INDIA: STEPS TOWARD RAPPROCHEMENT</title>
<body><pre>[Senate Hearing 108-418]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-418

             PAKISTAN AND INDIA: STEPS TOWARD RAPPROCHEMENT

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 28, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



93-067              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................    23
Cohen, Stephen P., Ph.D., senior fellow, Foreign Policy Studies 
  Program, The Brookings Institution, Washington, DC.............    11
    Prepared statement...........................................    14
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, statement 
  submitted for the record.......................................    38
Krepon, Mr. Michael, founding president, the Henry L. Stimson 
  Center, Washington, DC.........................................    17
    Prepared statement...........................................    20
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
Wisner, Hon. Frank, vice chairman, External Affairs, American 
  International Group, New York, NY..............................     3
    Prepared statement...........................................     7
    Pakistan and India--Joint Press Statement, January 6, 2004...    11

                                 (iii)

  

 
             PAKISTAN AND INDIA: STEPS TOWARD RAPPROCHEMENT

                              ----------                              


                      WEDNESDAY, JANUARY 28, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:25 a.m. in 
room SH-216, Hart Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Chafee, Biden, and Sarbanes.


          opening statement of hon. richard g. lugar, chairman


    The Chairman. This meeting of the Senate Foreign Relations 
Committee is called to order. Let me indicate at the outset 
that we have been informed that the Senate will have two 
rollcall votes, apparently back to back, at 11:40. This 
constrains our hearing a bit. Nevertheless, this is a good 
reason for beginning promptly, even though my colleagues are 
still en route. We have had a briefing earlier this morning in 
a closed session with regard to India and Pakistan. The 
briefing was well attended by Senators, and I have no doubt 
they will be appearing shortly.
    Nevertheless, I have an opening statement. I will deliver 
that. In the event that the ranking member, Senator Biden, is 
prepared with his statement, he will be recognized, and then I 
will recognize each of you as our witnesses for your testimony.
    The committee is pleased to welcome back Ambassador Frank 
Wisner, executive vice president for External Relations of the 
AIG Insurance Group and our former Ambassador to India. 
Ambassador Wisner recently co-chaired the independent task 
force sponsored by the Council on Foreign Relations and the 
Asia Society which produced a comprehensive study entitled 
``New Priorities in South Asia: U.S. Policy Toward India, 
Pakistan, and Afghanistan.'' Ambassador, we look forward to 
learning more about this study and as always, your general 
thoughts about these two very important countries.
    We also welcome Dr. Stephen Cohen, a senior fellow at the 
Brookings Institution, and Dr. Michael Krepon, founding 
president of the Henry L. Stimson Center and project director 
for the center's South Asia Program. Each has made substantial 
contributions to United States foreign policy and to our 
analysis of South Asia. The committee is delighted to draw on 
the expertise of these three distinguished witnesses as we 
consider prospects for rapprochement between India and 
Pakistan.
    This hearing comes at a most hopeful time in India-Pakistan 
relations. Pakistan's President Musharraf and India's Prime 
Minister Vajpayee agreed earlier this month to open a dialog on 
all of the bilateral issues between their countries. At the 
recent South Asian Regional Cooperation Summit, they also moved 
forward, along with their neighbors, on an important regional 
free trade agreement. They signed a protocol on fighting 
terrorism.
    Only Pakistan and India can finally resolve the issues 
between them. Yet it is more important than ever that the 
United States sustain active engagement in South Asia to 
encourage continuation of this very positive momentum. We have 
seen opportunities for peace squandered in South Asia in recent 
years. To ensure success, it is crucial that both parties 
prevent extremists from disrupting the process.
    Stability in this troubled region is vital to United States 
security interests, both because an Indo-Pakistani conflict 
could escalate into nuclear war and because of the potential 
nexus between terrorism and weapons of mass destruction. 
Hostility between India and Pakistan boosts Islamic extremists 
in the region and provides them fertile ground for terrorist 
recruitment. Greater instability also means that nuclear 
weapons could fall into the wrong hands. A stable South Asia in 
which Pakistan and India engage each other will eventually 
weaken the extremists. It will allow both countries to focus 
more time and energy and resources on building better lives for 
their people.
    United States diplomacy in South Asia has already paid off 
by helping to avert a possible nuclear war in 2002. India and 
Pakistan have taken positive steps since that time, including 
resumption of transport links, restoration of diplomatic ties, 
and implementation of a cease-fire along the Line of Control. 
They also have agreed to start technical level talks on re-
launching bus service between the capitals of the two portions 
of Kashmir, which would allow families to reunite for the first 
time in decades.
    Despite this promising atmosphere, normalization will take 
time and will require both sides to make difficult political 
decisions on matters of longstanding dispute. We have seen 
hopeful examples already. President Musharraf has said that 
Islamabad is willing to consider giving up its traditional 
demand for a plebiscite to resolve the status of Kashmir, as 
long as India is willing to show reciprocal flexibility. For 
his part, Prime Minister Vajpayee has conceded that India is 
willing to discuss all issues relating to Kashmir.
    The two leaders deserve praise for these bold moves, but we 
must recognize that they also face the opposition of entrenched 
interests and hawks in their own countries, who may try to 
undermine or complicate these diplomatic openings. Twice in 
December, President Musharraf was the target of assassination 
attempts.
    The United States can contribute to the easing of tensions 
and advance its own national security interests by exploring 
ways to assist both sides with nuclear security. As Ambassador 
Wisner's independent task force report recommends, we should 
seek new ways to bring India and Pakistan into the global 
nonproliferation system. We should encourage Indo-Pakistani 
nuclear discussions and confidence-building measures and the 
administration's recent expansion of our nonproliferation 
dialogs with each side. The United States has considerable 
expertise in nuclear threat reduction. We should use this, 
consistent with our international obligations, to facilitate 
exchanges between Pakistani and Indian security experts and 
offer them assistance with tightening export controls and 
border security, as well as with the protection, control, and 
accounting of nuclear stockpiles and arsenals.
    The United States must remain vigilant, especially in the 
light of recent reports that Pakistani scientists, with or 
without government approval, may have supplied Iran, Libya, and 
North Korea with nuclear technology and materials. Pakistan 
must demonstrate, through deeds and not just words, that it is 
serious about its commitment to preventing weapons 
proliferation and its ability to secure its nuclear weapons. As 
President Bush goes forward with discussions about the $3 
billion aid proposed to Pakistan, Congress should be fully 
cognizant of Pakistan's actions in this area.
    India also must do its part. Indo-U.S. relations have made 
remarkable strides in the past 4 years, as shown this month by 
the United States' unprecedented offer on high-tech 
cooperation, including nuclear energy and missile defense. We 
should make clear to New Delhi that such progress can continue 
only if it works to ease tensions in Kashmir and to build 
confidence among the Muslims there.
    India and Pakistan have often seemed far away, but problems 
that start on the subcontinent can have serious consequences 
for the United States. The stakes in South Asia have become too 
high to risk a return to military confrontation or creation of 
new sources of Islamic extremism.
    We look forward to hearing our witnesses' recommendations 
for advancing United States national security interests in this 
very important region.
    I call first of all upon Ambassador Wisner for his 
testimony. I am hopeful that each of you can use 10 or maybe 15 
minutes at the outset for these initial statements. Your full 
statements will be placed in the record, and you need not ask 
for permission for that to occur. It will occur, and please 
proceed then at your own pace. Ambassador Wisner.

    STATEMENT OF HON. FRANK WISNER, VICE CHAIRMAN, EXTERNAL 
             AFFAIRS, AMERICAN INTERNATIONAL GROUP

    Mr. Wisner. Mr. Chairman, let me first of all thank you for 
the opportunity to appear before this committee. It is an honor 
to be invited again and to be asked to comment on the new and 
most welcome changes that are occurring in South Asia, in our 
relations with India and Pakistan, their relations with each 
other, and to think a bit with you about the prospects for 
American foreign policy in the region, as well as the role of 
the Congress.
    I come today, as you noted, having spent a significant part 
of the last decade working with and in South Asia. I am very 
pleased that we have completed 2-year task force on United 
States policy, under the auspices of the Asia Society and the 
Council on Foreign Relations, and I would ask, with your 
permission, Mr. Chairman--you mentioned it in your remarks--
that that study be admitted for the record.
    The Chairman. It will be placed in the record.\1\
---------------------------------------------------------------------------
    \1\ The study referred to can be accessed on the Council on Foreign 
Relations Web site at:
---------------------------------------------------------------------------
http://www.cfr.org/pub6486/
dennis_kux_frank_g_wisner_jr_mahnaz_ispahani_marshall
_bouton_nicholas_platt/new_priorities_in_south_asia.php
    Mr. Wisner. Thank you, sir.
    My remarks, as you say, will be in the record. Today I 
would prefer to summarize the principal points that I believe 
should focus our consideration on the road ahead. The 
background to the situation is, as we all know, one of deep, 
deep difficulty, 56 years of conflict, failed or attempted 
negotiations to stabilize relations between the two countries, 
very tough issues, notably Kashmir.
    We see today the prospect for negotiations and we have to 
think about how the United States should position itself. The 
first question I believe that is pertinent is to satisfy 
ourselves as to what has changed to make the new situation 
today as promising as it appears to be. I would advance several 
observations.
    The first is it is my view that the two parties, 
particularly the leadership of the two countries, recognize 
that the past has not worked, and that is 56 years of conflict 
and failed negotiations have not advanced the cause of both 
countries, either with regard to their differences or with 
regard to their national interests, notably the development of 
their economic and social potential.
    The second argument that I believe is pertinent is that, 
uniquely in the present context, we have two leaders, President 
Musharraf, Prime Minister Vajpayee, both of whom are at the 
height of their powers, both confident, reasonably secure in 
their positions despite threats to President Musharraf's life 
and the vagaries of elections in Prime Minister Vajpayee's 
regard. Looking back over the years, I have never seen the 
leadership working in such favorable political circumstances.
    The third point that I believe is pertinent is the deep and 
personal involvement of both President Musharraf, who sees the 
present undertaking as a chance to rebuild Pakistan's national 
strength, and Prime Minister Vajpayee, who sees in this 
occasion a chance to settle an old issue that has torn the 
subcontinent apart, caused countless years of suffering, and 
constrained India's entry on the world stage and impeded Indian 
competitiveness.
    The fourth reason that I would argue the situation today is 
different than the one we have known in the past is the very 
careful deployment of the diplomacy of the two nations--using 
back channels successfully, operating outside the glare of 
publicity, absence of gestures on one hand or the other to 
wrong-foot the opposite party--resulting in the remarkable 
January 6 joint statement announcing a composite dialog.
    That document, which I regard as a model of diplomatic 
balance and of respect, Mr. Chairman, I would like to also 
suggest be added to the formal record. It is a pathbreaking 
document in the history of the region.
    The Chairman. It will be entered.\2\
---------------------------------------------------------------------------
    \2\ The Joint Press Statement can be found on page 11.
---------------------------------------------------------------------------
    Mr. Wisner. I would argue furthermore that, less well seen 
to all of us, less observable in the newspapers, are the 
signals that both leaders have sent to their constituencies, to 
the national security structures, to the press, to members of 
elected assemblies, that now is the time to seek an opportunity 
to make peace with each other. These steps are critically 
important to going forward.
    I would argue furthermore, Mr. Chairman, that the prospects 
at present are better than in the past because the two sides 
have consciously engaged in confidence-building measures in 
advancing, as you noted in your opening statement, 
communications, exchanges of leaders, cease-fire undertakings, 
trade agreements, which in themselves have created momentum, 
built confidence, and which must continue if the pace and 
direction of present events is to be carried forward.
    The direction that the two governments have taken deserves 
our, America's in general, this committee and Congress's, 
wholehearted support, and this hearing, Mr. Chairman, is a 
terrific occasion for the committee to add its own voice of 
support, just as you did in your opening remarks.
    I will not argue that the road ahead will be easy. Setbacks 
indeed are likely and even discouraging ones, for the threats 
are many: the very heavy record of history, the cross-border 
violence that has typified the situation in the region for 
better than a decade, assaults by radical Islamist groups in 
Pakistan, deeply, deeply held views in both countries about 
core issues, notably Kashmir, with Pakistan feeling that she 
was wronged and India believing that Kashmir's status is key to 
the stability of the Indian union.
    There are three keys, Mr. Chairman, in my judgment to 
success in negotiations between India and Pakistan. One is a 
sustained recognition of the parties that force will not alter 
realities. It has not over the past decades, particularly over 
the past 10 years.
    The second point is that neither side can advance its 
interests if the other side is humiliated. One must seek win-
win solutions.
    Finally, no settlement of the crisis in the region is 
possible if the Kashmir issue is not addressed and if the 
consent of Kashmiris is not obtained.
    I hope as I look forward that South Asian leaders will draw 
on the depth of their skill to make the diplomatic road ahead a 
smooth one. It is important that both select negotiators who 
understand their national interests and are committed to peace. 
No negotiation will succeed if it is not closely supervised by 
the President of Pakistan and the Prime Minister of India. Nor 
will a negotiation succeed if there is a great deal of 
publicity, public comment with the details of the negotiation 
exposed for public attack and criticism.
    I also believe that key to the success of the negotiations 
lies in sustaining the present pace of confidence-building 
measures. You mentioned a number, including talks about opening 
border road transportation between India's side of Kashmir and 
the side of Kashmir in Pakistan. But there are many other 
steps, each of which create momentum and confidence.
    Finally, I believe the two parties can be successful if 
they are prepared to negotiate all the issues, addressing each 
one, with the same sense of urgency and purpose, but coming to 
agreements on the outstanding issues and allowing those 
agreements to take effect without holding any other agreement 
hostage. I say this particularly with regard to Kashmir, where 
the road ahead in negotiations will be long and complicated, 
given the existing divide between India and Pakistan. But 
bluntly, achieving an agreement over Kashmir should not delay 
the implementation of agreements which settle boundry disputes, 
open trade, the movement of persons, and nuclear confidence 
building measures.
    American diplomacy, Mr. Chairman, can play a critical role. 
There are a number of ways we can do it, but the starting point 
is a recognition that important American interests are at stake 
in the region. For the first time, American soldiers are in 
battlefields in Afghanistan, where the United States registered 
its greatest victory in the war on terror.
    The need for stability in Pakistan is also a major American 
interest, and Pakistan's ability to address the troubled, very 
troubled and threatening situation along the Pakistani-Afghan 
border. Pakistan's control of weapons of mass destruction. And 
the United States I would argue has a vital interest in India's 
continued emergence as a power on the world stage.
    With these interests in mind, the United States can 
approach the present situation, not as a mediator, where we 
neither have the standing nor the invitation, but as friends of 
the negotiation, as facilitators of the negotiation. We cannot, 
after all, as Americans replace either the imagination nor the 
will of the parties to achieve and live by those settlements.
    Third, I would argue that our best way forward as Americans 
is to work through quiet diplomatic channels, resisting the 
temptation to take credit, but assuring ourselves at the same 
time that the core issues that divide the two parties are 
addressed and the top leadership encouraged and focused.
    In this regard, I have the highest respect for the 
administration and the way it has played its cards in South 
Asia. Despite the many distractions in American foreign policy, 
the President and the Secretary of State have addressed South 
Asia and focused American attention on the region consistently 
since the crisis of December 2001 broke out and edged toward 
war, including war with the risk of a nuclear dimension.
    Fifth, I would like to argue that we are going to need more 
of that attention, the same level of involvement, active, 
engaged involvement in support, including vital contributions 
by the U.S. Congress. In this regard, the administration's 
request for $3 billion in aid to Pakistan is wise and timely 
and I hope will enjoy the support of this committee and of the 
U.S. Senate and Congress as a whole.
    In our report, that is the Council on Foreign Relations and 
Asia Society report, we argued for a change in the allocation 
of that assistance so that two-thirds of the assistance would 
go toward economic and social purposes and one-third to 
security purposes, and that half of our aid at least be tied to 
jointly agreed Pakistani and American goals that address the 
critical issues in our relationship--the nuclear question, the 
Pak-Afghan border problems, the issue of terror in Pakistan 
itself. The other half would be provided ``without strings 
attached'' to give the U.S.-Pakistan relationship the stability 
it has not enjoyed.
    I would also put before you the thought that Pakistan's 
textile exports deserve as well sympathetic consideration. We 
need, Mr. Chairman, a steady relationship with Pakistan, a 
relationship that addresses all issues, a relationship that is 
absent from the threat of sanctions, which if the historical 
record over the years has anything else to prove have not 
worked.
    The second broad point I would make is that our 
relationship with India needs the attention of the Congress. 
The administration's initiative, which you noted in high-tech 
exports, will eventually come back to your door. In addition, 
as you were thoughtful enough to point out, I believe the time 
is right for renewed attention to nonproliferation, to the 
global norms that will give stability in the field of weapons 
of mass destruction. I believe the United States needs to 
design new policies to strengthen global non-proliferation 
norms as much as I hope that India and Pakistan will themselves 
address nuclear confidence-building measures as their 
negotiations go forward.
    Finally, in closing, Mr. Chairman, I would like to 
emphasize that it is not my purpose to speak on the entirety of 
the relationship of the United States with all the nations of 
South Asia, but I believe that if we do not create the right 
framework our diplomacy on the Indo-Pak issue our other 
objectives with the region will be undermined. If you are going 
to deal with the whole, you have to deal with it as the sum of 
the parts. We need a steady approach in our relationship both 
with India and Pakistan.
    I believe as well that it is important to remain vigilant, 
attentive, that this committee remain fully appraised of 
developments as they go forward. Your attention will be felt by 
the parties themselves. I believe as well the United States 
should not budge one inch from the key markers it has laid down 
with regard to terror. Cross-border terror and violence in the 
region must end.
    Finally, it is very important that we keep our eye on the 
issues to be settled. They are hard, they are complex; Kashmir 
is the most difficult.
    Mr. Chairman, I look forward, in addition to my colleagues, 
to answering yours and the committee's questions.
    [The prepared statement of Ambassador Wisner follows:]

   Prepared Statement of Hon. Frank Wisner, Vice Chairman, External 
                 Affairs, American International Group

          THE UNITED STATES AND SOUTH ASIA: NEW POSSIBILITIES

    It is an honor to appear before the Senate Foreign Relations 
Committee again and a particular pleasure to be invited to comment on 
the new and most welcome changes in relations between India and 
Pakistan. In the course of my testimony, I will try to provide the 
background and identify the dynamics in the new situation. I will also 
assess their importance to the United States and offer thoughts about 
how the United States should position itself to assist the parties as 
they embark on very difficult negotiations, the outcome of which could 
profoundly effect South Asia's future and key American national 
interests. But that prognosis will not be easily achieved and the 
dangers on the way are many, especially given the history of the Indian 
and Pakistani relationship, marked as it is by deep seated animosity 
which resulted in three wars over the past 55 years, serious military 
clashes short of full scale warfare, typified by the Kargil Crisis of 
1999, and almost two decades of cross border violence and terror. The 
path to the present is also marked by frequent attempts to negotiate 
differences, including meetings and agreements at the Chief of State 
and Prime Ministerial levels.
    I bring to the table today my experience as Ambassador to India in 
the 1990s; time with my corporation, the American International Group, 
which is active in the Indian market; my work with the U.S.-India 
Business Council; and the contribution I made over the past two years 
to the Council on Foreign Relations and Asia Society Task Force which 
assembled leading experts on South Asia and resulted in a recent 
publication, ``New Priorities in South Asia: U.S. Policy Toward India, 
Pakistan, and Afghanistan.'' My cochairman, the Asia Society's 
President, former Ambassador Nicholas Platt, and I took the conclusions 
of our study to Afghanistan, Pakistan and India in early December 2003 
to obtain reactions from governments, media, intellectual and business. 
We were joined by former Ambassador Dennis Kux, whose hard work made 
the study possible and Mahnaz Ispahani of the Council on Foreign 
Relations and a great scholar of South Asia. The conclusions of our 
study and the reactions we garnered will be included in my testimony 
today.

Background
    First, a brief word of background to provide perspective to your 
deliberations. India and Pakistan began 2003 with daggers drawn. The 
terrorist attack on the Indian parliament in December 2001, followed by 
a mobilization of nearly a million men along the Indo-Pakistani border 
and the line of control in Kashmir brought tensions, borne of history, 
war, decades of insurgency and cross border violence and terror to a 
head. Armed as both nations are with nuclear weapons, the Indo-Pak 
rivalry shot into international prominence. We now know that incidents 
which followed the 2001 attack in New Delhi brought the two nations to 
the brink of open conflict.
    India, in the wake of these events, set out her conditions--an end 
to Pakistani supported violence before talks between New Delhi and 
Islamabad could begin. Buried were attempts at detente and 
normalization begun with Prime Minister Vajpayee's visit to Lahore and 
the Vajpayee-Musharraf summit in Agra.
    In April, 2003, India modified her position, with Vajpayee 
proposing a fresh initiative, provided, of course, that Pakistan would 
make good on repeated pledges, given in public and through the United 
States, to end support for violence. In the wake of this initiative, 
India undertook a series of carefully calibrated steps to lessen 
tensions and build confidence. Pakistan, which had called for 
negotiations and a new look at Kashmir, reciprocated. Diplomatic 
representation in New Delhi and Islamabad was restored; air links 
between the capitals were reinstated, followed by an Indian proposal to 
open a road service between Srinigar in Jammu and Kashmir and 
Muzaffarabad in Azad Kashmir; a veritable stream of ``people to 
people'' contacts began and was accelerated with prominent citizens 
from the two sides visiting for the first time. Pakistan offered a 
ceasefire along the line of control, and extended it to the Siachin 
glacier which India accepted. Long awaited trade ties were advanced 
during the South Asian regional summit in late December.
    More confidence building gestures of this nature are planned. 
Direct negotiations between the two governments overall outstanding 
issues, including Kashmir, are scheduled to begin in February and will 
add thereby an important diplomatic and political dimension to the 
confidence building measures which the two governments have undertaken.
    Of great importance is the signal sent by both governments to their 
security establishments, political institutions and publics at large 
that the time is right to lessen tensions, seek settlements, and create 
a condition of peace between the two countries. The Indian and 
Pakistani bodies politic have responded positively, reminding us of the 
response Americans and the peoples of the Soviet Union evinced during 
the Cold War, when, despite the deep divide in positions and outlook, 
our governments found their way to summits and negotiated our 
differences.

India and Pakistan: the road ahead
    The steps taken by President Musharraf and Prime Minister Vajpayee 
deserve the broadest possible commendation. This hearing provides the 
United States and our Congress another opportunity to speak out and 
signal our support for the course these two great nations have set. The 
route traveled thus far is impressive, carefully considered steps, an 
absence of grandstanding and publicity, and a willingness to steer 
clear of promises which cannot at this stage be predicted with 
confidence, given history and tough, present realities.
    It is my impression that despite two attempts on Musharraf's life 
and the presence in Pakistan of strong, deeply rooted, radical 
political groups dedicated to violence, the great majority of 
Pakistani's accept the legitimacy of Musharraf's efforts to pursue a 
new understanding with India. Like Indians, Pakistanis recognize the 
subcontinent's rivalry has vitiated both nation's strength and ability 
to address the pressing needs of their populations. Pakistan's 
businessmen tell me they welcome the prospect of doing business 
directly with India. They believe they can compete and will be able to 
take advantage of larger markets and cheaper sourcing.
    The world at large, notably the United States, see the great 
advantages in Indo-Pakistani detente and understanding. We need 
stability in Pakistan and progress in its dialogue which India can 
contribute to that objective. Less distracted by their historic 
quarrel, India and Pakistan can play positive roles in their region and 
beyond. Lessened tensions also diminish the awful threat of a nuclear 
exchange.
    This said, it would be foolish to argue that the road ahead is 
either safe or easy. It is decidedly not, and given history of past 
Indo-Pakistani negotiations, there will be setbacks, including 
dangerous ones. This venture will only succeed if there is an 
unmistakable and sustained abatement in cross border violence and 
terror. Fresh confidence building measures and even the prospect of 
successful negotiations will be negatively effected by cross border 
violence. I contend Americans understand and support India's insistence 
in the regard, but I argue equally that terror and the groups that 
propagate it are a threat to the Pakistani state and Pakistan's ability 
to restore national strength and international standing.
    Success will also depend on a broad recognition among Pakistanis 
and Indians that force will not alter realities, including the status 
of Kashmir. Neither side can advance if the other is humiliated. 
National pride and honor are as compelling sentiments in South Asia as 
they are anywhere else in the world. Finally, as regards Kashmir, no 
settlement is possible without the contribution and consent of 
Kashmir's peoples. For this reason, it is important that New Delhi's 
dialogue with Kashmiris in opposition, or in dissidence, be pursued 
with vigor and that Kashmiri dissidents pick up a clear message from 
Islamabad that the time is right to restore peace and engage 
politically.
    Successful, negotiations are possible if New Delhi and Islamabad 
seek ``win-win'' solutions. Those in authority in both countries have 
firsthand experience with the trauma of partition and the bitter 
conflicts which followed it. They have an opportunity to spare future 
generations the pain they have suffered, provided they seek 
understandings which are based on respect and are pursued quietly and 
confidently. For the first time in years, India's and Pakistan's 
political clocks are ticking on the same time; both have strong 
leaderships, backed by favorable public dispositions.
    This is precisely the spirit inherent in the joint Indian-Pakistani 
statement of January 6, 2004. I suggest it be included in the 
Congressional record. It contains the views of both governments in a 
balanced, respectful fashion. The statement calls for negotiations in 
February. We must all wish the negotiators well.
    When negotiations are joined, they must be pursued with all the 
skill India's and Pakistani's leaders can muster--skill with which 
South Asia's leaders are amply endowed. We will know progress is 
possible if the negotiators selected, include those committed to peace, 
and if their work is superintended closely by both country's highest 
authorities. The channels of exchange should also be carefully 
considered. Negotiations can progress if they are pursued outside the 
glare of publicity and in a manner where ideas can be tested and 
compromises achieved. The record of restraint and careful deliberation 
of recent months is instructive.
    Above all, we need to hope and argue that India and Pakistan set 
the right objectives and negotiate in a manner that successes can be 
scored, momentum achieved and further gains registered. At heart the 
key objective is to reduce tensions and build confidence. Concrete 
negotiating results will be hard to achieve and slow in coming. If the 
threat of conflict between the two nations can be contained, the world 
and India and Pakistan will profit.
    It has been my strongly held view over a number of years, the 
conclusions of those I have worked with in the Council on Foreign 
Relations and the Asia Society, the opinion of many thoughtful 
observers in India and Pakistan that the right way to proceed is to put 
all issues on the negotiating agenda, including Kashmir in its several 
dimensions; negotiate each with urgency and seriousness; but as a 
conclusion is reached, to permit it to take effect, while solutions to 
other differences are sought. In other words, agreement on many of the 
issues dividing India and Pakistan should not be held hostage to 
agreement on all questions, particularly Kashmir where the differences 
are greatest and at this stage offer no ready prospect of early 
compromise.
United States diplomacy, India and Pakistan
    The United States has important national interests at play in South 
Asia. For the first time in our history we are directly involved in the 
region. Our soldiers are fighting in Afghanistan, where our most 
significant gain in the war on terror, the elimination of al-Qaeda's 
base, was registered. We need Pakistan's full cooperation in 
eliminating al-Qaeda's networks and leadership and we need Pakistan's 
unstinting cooperation if the extremely difficlt situation along the 
Pakistan-Afghanistan border is to be brought under control. We require, 
moreover, Pakistan's commitment to control its nuclear and missile 
systems and technologies. Above all, we need a stable, progressive 
Pakistan.
    India is finally emerging as a major force on the world's stage. 
Its economy is registering huge gains, especially in fields important 
to our future--information and bio technologies. Our trade is robust 
and growing; Americans of Indian decent are a vital force at home. 
India's growing strength, rooted in democratic traditions, is key to 
Asia's peace and the balance of power.
    While we have an important stake in peace between India and 
Pakistan, we are not mediators. Nor do we have solutions, including for 
Kashmir, which are not outcomes borne of Indian and Pakistani 
imagination and pursued with their political will. We have strong ties 
to both governments, most recently with India, but our image in the 
region, while on the whole positive, is open to contest, especially in 
Pakistan where its Islamist minority regards American influence with 
deep suspicion, verging on hostility.
    We can facilitate a reduction of tensions in the region and the 
pursuit of negotiations, but we cannot make or even broker peace 
between India and Pakistan. To be successful as facilitators, it is 
incumbent upon the United States to build its influence in both 
countries. With regard to the present, promising developments in the 
region, our best interests are served by discretion, not claiming 
credit for gains registered, nor articulating outcomes the parties have 
not accepted. We work best through quiet, diplomatic channels with a 
vision of where we wish India and Pakistan to be, but eschewing the 
limelight. More now than at anytime in the recent past, discretion is 
important.
    Equally important is focus--keeping a close watch on the situation, 
engagement at highest levels, at carefully considered moments and 
pursuing relations with both New Delhi and Islamabad, but not linking 
the progress in our relationship with one party to the imperatives of 
our ties with the other.
    With these considerations in mind, I have the highest regard for 
the Administration's record in South Asia. The President, the Secretary 
of State, his colleagues in cabinet and across government have worked 
steadily to build American influence in South Asia, giving substance 
and stability to our approach and intervening effectively, generally in 
the shadows, during the crisis that beset India and Pakistan in 
December, 2001. American diplomacy helped diffuse that crisis, not 
once, but on several occasions. The Administration has made clear its 
commitment to detente in the region and its support of negotiated 
settlements.
    It has built bridges to Pakistan, drawing red lines when necessary, 
but acting with understanding and providing support. With India, the 
Administration has set out to broaden and deepen political, security 
and economic ties. At a time when the United States is heavily taxed on 
many fronts, the Administration has given India and Pakistan the 
attention and importance they deserve.
    Our engagement in South Asia requires more of the same; it also 
needs the full support of the Congress. This hearing is a timely 
example of the Senate Foreign Relations Committee's attention to our 
policies in South Asia. As we move ahead, it is deeply important to 
provide Pakistan with the $3 billion which the Administration has 
requested and to my view to commit the lion's share to areas which will 
contribute to Pakistan's stability, education being a major example. 
Textile imports from Pakistan call for sympathetic consideration. 
Pakistan poses one of the more difficult foreign policy challenges the 
United States faces. Dealing with terror and its supporters in 
Pakistan, containing nuclear and missile proliferation; and bringing 
order to the Pakistan-Afghanistan border area must also be treated 
simultaneously and at the same time we pursue ways to support a 
lessening of tensions and negotiations between India and Pakistan. 
Central to our approach to Pakistan is a willingness to be frank when 
key boundaries are crossed; our assistance can, in part, be linked as 
incentives to Pakistani accomplishment of objectives which we jointly 
agree are important. A successful policy with Pakistan requires 
stability and must be free of threats of sanctions and rhetorical 
attack.
    The requirements of our engagement with India are of similar 
importance. The Administration's recent decision to deal with high 
technology trade impediments deserves Congressional support. The 
imperatives of non proliferation are important to us; they are also 
significant to India and Pakistan. We make a serious error if we leave 
a searching review of global non proliferation, especially nuclear, 
norms off our foreign policy agenda. The global, non proliferation 
system, which the United States supported over the past four decades, 
does not include space for India and Pakistan, which are now nuclear 
powers. It is in no ones interest that they remain outside a system of 
international controls and no such system presently exists. Equally, I 
hope that nuclear threat abatement measures will be part of the Indian-
Pakistani dialogue.

Conclusion
    It is not my purpose today to list the many requirements of our new 
engagement with India and Pakistan. Rather, I wish to underscore the 
importance of our approaching the needs of both relationships as a 
vital component of the influence we need to exert during the current 
phase of India's and Pakistan's relationship. The particular cannot be 
pursued without equivalent attention to the whole.
    Returning to the subject at hand, American policy and the prospects 
for dialogue between India and Pakistan, I contend we can take calm 
comfort from recent developments, but we must be vigilant and engaged, 
sharing perceptions, offering ideas through diplomatic channels and 
lending public support on special occasions. There is reason to argue 
for an approach which includes the strongest possible marker on terror 
and cross border violence, a negotiation which concentrates on the 
introduction of further confidence building gestures in trade, the 
movement of peoples and communications and at the same time addresses 
the issues which divide the two nations, especially Kashmir, where 
large concentrations of troops are deployed and where the interests of 
Kashmiris in peace and greater prosperity have long been neglected. The 
nuclear issue must not be far from our minds.
    In closing, I wish to thank the Committee for the privilege of 
appearing before you today. I am prepared to answer questions.

                                 ______
                                 

                         Joint Press Statement

    The President of Pakistan and the Prime Minister of India met 
during the SAARC Summit in Islamabad.
    The Indian Prime Minister while expressing satisfaction over the 
successful conclusion of the SAARC Summit appreciated, the excellent 
arrangements made by the host country.
    Both leaders welcomed the recent steps towards normalization of 
relations between the two countries and expressed the hope that the 
positive trends set by the CBMs would be consolidated.
    Prime Minister Vajpayee said that in order to take forward and 
sustain the dialogue process, violence, hostility and terrorism must he 
prevented. President Musharraf reassured Prime Minister Vajpayee that 
he will not permit any territory under Pakistan's control to be used to 
support terrorism in any manner. President Musharraf emphasized that a 
sustained and productive dialogue addressing all issues would lead to 
positive results.
    To carry the process of normalisatlon forward the President of 
Pakistan and the Prime Minister of India agreed to commence the process 
of the composite dialogue in February 2004. The two leaders are 
confident: that the resumption of the composite dialogue will lead to 
peaceful settlement of all bilateral issues, including Jammu & Kashmir, 
to the satisfaction of both sides.
    The two leaders agreed that constructive, dialogue would promote 
progress towards the common objective of peace, security and economic 
development for our peoples and for future generations.

Islamabad

January 6, 2004

    The Chairman. Thank you very much, Ambassador Wisner, for 
that testimony.
    Dr. Cohen, would you give your testimony.

 STATEMENT OF STEPHEN P. COHEN, PH.D., SENIOR FELLOW, FOREIGN 
       POLICY STUDIES PROGRAM, THE BROOKINGS INSTITUTION

    Dr. Cohen. Thank you. Senator Lugar and members of the 
committee: I am honored to be invited to meet with you today, 
and will summarize my testimony.
    You have asked me to address the internal dynamics in each 
country that might be driving the current thaw and to suggest 
how U.S. policy might further encourage positive trends. I am 
pessimistic on balance that this new effort will lead anywhere. 
This is, as Ambassador Wisner has said, the most remarkable 
opportunity we have seen in South Asia for many years, and in 
some ways many of the forces for peace are in alignment, but 
clearly there are many forces in both countries as well as 
outside which could derail this effort.
    I will speak briefly about the Indian side, the Pakistani 
side, and then turn to American policy.
    I certainly subscribe to the Council's report and was one 
of the signatories. It was the second such report that we have 
generated. My hope again is that there not be a third one, that 
the region has settled down and stabilized itself. But hope is 
not a policy.
    On the Indian side, there is no doubt that Prime Minister 
Vajpayee is a leading proponent of normalization with Pakistan. 
This traces back to his term as Foreign Minister of India in 
the 1970s. He is not a dove, but he recognizes that India 
cannot emerge as a truly great Asian state if it is dragged 
down by the Kashmir dispute and if Pakistan remains openly 
hostile to it.
    Vajpayee's views are shared by the centrist elements of his 
party, the Bharatiya Janata Party, including the distinguished 
Foreign and Finance Ministers, Yashwant Sinha and Jaswant 
Singh. Vajpayee's standing is such that even in his party 
hardliners will not challenge him on foreign policy issues, 
although there are fringe groups that would attempt to end the 
Pakistani threat once and for all, by war if necessary.
    My assessment is that Vajpayee's initiative, which led to 
the Islamabad summit of last month, is serious, but that it was 
also convenient--burnishing his image as a statesman just 
before he leads the party into an important national election 
which is likely to take place within a few months.
    On the Pakistani side, it is harder to figure out the 
nature and the style of Prime Minister Vajpayee's dialog 
partner, General Musharraf. He is an improbable peacenik. 
General Musharraf lacks strategic vision, he is a bad listener, 
and he believes that ruling Pakistan is like running an army 
division--give the orders and the troops will obey.
    However, after 4 years he may have learned that this 
approach does not quite work. One suspects that President 
Musharraf is tired of water issues, sectarian rivalries, and 
diplomatic doubletalk. Even the strategy of using militants to 
force the Indians to the negotiating table has failed. Now that 
militants are more interested in his death than victory in 
Kashmir, he may have second thoughts.
    Such doubts are not peculiar to General Musharraf. He 
represents a large civil-military oligarchy, dubbed the 
``establishment'' by Pakistani writers, that I would estimate 
is 800 to 1,000 people strong. This includes the senior army 
commanders, bureaucrats, media leaders, politicians, and even 
some Islamists. They know that Pakistan is failing, that an 
economic and military race with an expanding India is a losing 
proposition, and that Pakistan's friends, including America, 
are unreliable. They believe that once Afghanistan is 
stabilized and al-Qaeda is mopped up the Americans will 
disappear, leaving Pakistan without a major external ally 
except for China. Of course, China has second thoughts about 
Pakistan and it has begun to normalize its border conflict with 
India.
    In 6 months we will know whether the forces in both India 
and Pakistan opposed to a South Asian peace initiative are able 
to sabotage it. By then it will be feasible for militants to 
infiltrate into Indian-administered Kashmir from the Pakistani 
side of the Line of Control and the Indian elections will have 
been concluded, probably with a fresh mandate for Vajpayee.
    Let me speak briefly about American foreign policy. I 
associate myself with Ambassador Wisner's remarks, perhaps with 
a somewhat different emphasis. First, we should not be overly 
concerned about the stability of the Pakistani regime. I think 
this is an argument that the Pakistanis have used for many 
years: Apres moi, le deluge. Each Pakistani regime, whether 
civil or military, has always claimed, especially to Americans, 
that if we do not support them what follows will be much worse.
    I do not see Pakistan as that unstable a country in the 
short run, that is 4 or 5 years. I am just concluding a book on 
the future of Pakistan and clearly I think Pakistan has 4 to 6 
years in which the present system will remain in place. After 
that, stability is a major question mark.
    Pakistan's policies are rooted in the interests of the 
establishment, especially the corps commanders who form an 
inner circle of power within Pakistan. Again, even the Indian 
estimates are among the senior Pakistan army generals there are 
hardly any radical Islamists among them. So I think we are 
dealing with many Musharrafs in the Pakistan military.
    But I think we should look to the long-term in Pakistan. I 
am concerned, as are many Pakistanis, about the basic 
structural integrity of the state. The economy is not doing 
well. The educational system collapsed a long time ago. The 
bureaucracy has failed in many respects. Ethnic and sectarian 
violence is increasing in Pakistan. I think much of our 
attention to Pakistan should focus, not on the short term 
prospect of keeping Pakistan in the war on terrorism, but on 
the long-term prospect of a collapse of Pakistani society.
    Many Indians are concerned about this also. They do not 
want to see a Pakistan that fails completely because it might 
pump out terrorists, nuclear material, and perhaps masses of 
Pakistanis escaping to India from a collapsing Pakistan.
    So I think the United States should not be overly concerned 
about the stability of the present Pakistani regime. I think if 
Musharraf should die, perhaps by assassination, he will be 
replaced by an equally centrist group of leaders.
    The United States can enrich and influence the internal 
Pakistani debate on Kashmir's future, but only if it has a 
presence on the ground. I have recently been to Pakistan 
several times, and what is astonishing is that there are no 
voices in Pakistan which present an American view on many 
important issues. Pakistan is probably the most anti-American 
country in the world right now, this ranges from the radical 
Islamists on the one side to the liberals and Westernized 
elites on the other side.
    I do think that we need to rebuild and restore an 
information presence in Pakistan, and if we cannot do that we 
should work out ways of establishing contact and dialog with 
Pakistanis outside of the country. This could be done in the 
region by various regional groups, including SAARC, or the 
Regional Center for Strategic Studies in Colombo. There are 
also other ways in which American contacts with Pakistanis can 
be enriched.
    Washington should strengthen the fledgling peace process by 
increasing its funding for regional dialogs that now take place 
in various SAARC institutions and other arenas. I just came 
back from a conference in Doha sponsored by Brookings and the 
Government of Qatar. I think we had as good, if not better, a 
dialog there on these critical issues as I have seen in South 
Asia. But the U.S. Government played no role in that conference 
and in fact there was no high level American representation 
there.
    Washington should also consult closely with its most 
important allies. Besides providing technical expertise on 
border monitoring and other confidence-building measures, 
America and its close allies should use their aid programs to 
reward India, Pakistan, and various Kashmiri groups for 
progress in negotiations. They should also encourage Western 
and Japanese firms to invest in plants and companies that do 
business in both countries, further strengthening regional 
economic ties.
    Finally, the United States should not take a position on 
the shape of a final settlement of the Kashmir dispute. What is 
going on now in South Asia is a peace process. The structure of 
a peace process is that as people engage in it over a long 
period of time their views and their attitudes change. That is, 
they modify long-held positions until they come closer, where 
some kind of agreement can be reached.
    We have seen this in Northern Ireland. We have seen this in 
the Balkans. We have seen this to some degree in the Middle 
East. I think with luck this could be the beginning of a peace 
process in South Asia, a process that will take years, not 
months.
    We should emphasize, in terms of our view of the Kashmir 
issue in particular, that it is a human rights issue, not a 
matter of law or territory or U.N. resolutions. This is a 
position that maximizes the interest of all parties concerned 
and would make a final settlement easier. Pakistanis can claim 
in the end that their struggle resulted in a more humane 
treatment of the Kashmiri people, even if Kashmir is not joined 
to Pakistan. Indians will remove a blot on their democracy and 
the Kashmiris of course will recover a semblance of normal 
life.
    Thank you very much.
    [The prepared statement of Dr. Cohen follows:]

 Prepared Statement of Stephen P. Cohen, Ph.D., Senior Fellow, Foreign 
           Policy Studies Program, The Brookings Institution

    It is an honor to be invited to share my views on the prospects for 
rapprochement between India and Pakistan, and the steps that America 
might take to strengthen the fledgling peace process now underway. The 
United States can and should do more--it has mostly been a bystander--
but in the final analysis it will be up to the Indians and Pakistanis 
to determine whether their debilitating rivalry will continue for 
another fifty years. This rivalry is costly to them, but it also places 
important American interests at risk.
    Senator Lugar, you have asked me to address the internal dynamics 
in each country that may be driving the current thaw, and to suggest 
how U.S. policy might further encourage positive trends.
    I am pleased to do so, but by way of background the following 
should be kept in mind.

                        THE HISTORICAL FRAMEWORK

    On the face of it, the present thaw will not last. India-Pakistan 
relations have moved from crisis to detente and back again for many 
decades.
    The most recent cycle began in 1987 with provocative Indian 
military exercises designed, in part, to pre-emptively attack 
Pakistan's fledgling nuclear program. Another crisis occurred in 1990, 
and a mini-war was fought in 1999 in the Kargil region of Kashmir. Two 
years ago, India again threatened a larger war, this time in response 
to terrorist attacks in Kashmir and on the Indian Parliament.
    These crises have alternated with periods of normalization and even 
cordiality, marked by several summit meetings. After 1987 President Zia 
ul-Haq flew to India in a gesture of reconciliation; after 1990 Benazir 
Bhutto and Rajiv Gandhi crafted some confidence-building measures (a 
few of which were implemented); and both before and after the 1999 
Kargil war India's Prime Minister Atal Behari Vajpayee held summit 
meetings with Pakistani leaders (Nawaz Sharif in Lahore, Musharraf in 
Agra). Finally, Vajpayee and Musharraf met in Islamabad last month in 
connection with a South Asian Association for Regional Cooperation 
(SAARC) summit.

                            LESSONS LEARNED

    What are we to make of this pattern? I would suggest six lessons:

  <bullet> India and Pakistan can reach agreement on ancillary issues, 
        including confidence-building measures, but not on Kashmir's 
        final status;

  <bullet> The introduction of nuclear weapons has been accompanied by 
        a learning process in both states, and several of the crises 
        were exacerbated by the nuclear factor;

  <bullet> Negotiations take place at a moment when the two countries 
        are in political and strategic balance; they find themselves 
        momentarily agreeing that talks are worthwhile, but sooner or 
        later one or the other side concludes that the risks of moving 
        ahead are greater than the costs of breaking off discussions;

  <bullet> In both countries there are powerful forces that oppose 
        serious negotiations;

  <bullet> Outside powers have played little, if any, role in advancing 
        the dialogue;

  <bullet> The United States has intervened several times in times of 
        crisis, but never developed a strategy that might promote and 
        sustain a real peace process.

                        DOMESTIC DYNAMICS: INDIA

    India has only two realistic choices in its relations with 
Pakistan. The first is a dialogue that might lead to a settlement over 
Kashmir and other issues (especially trade) without changing core 
Indian policies; the second is a long-term strategy of containment, 
which would attempt to promote change within Pakistan while resisting 
Pakistani military adventures. Two other strategies are now debated in 
India, but both seem unattractive: one is to completely ignore 
Pakistan, the other is to openly challenge Pakistan, forcing change and 
perhaps (as in 1971), its breakup.
    There are senior Indian officers who advocate a ``limited war'' to 
teach Pakistan a lesson. The 2002 crisis was a turning point: Indian 
generals could not promise that a limited war against Pakistan would 
not ``go nuclear,'' and the political leadership concluded that the 
risks of such a war were too great.
    There is no doubt that Prime Minister Vajpayee is the leading 
Indian proponent of normalization with Pakistan, first demonstrating 
this when he was Foreign Minister in the Janata Dal government in the 
1970s. No dove, Vajpayee recognizes that India cannot emerge as a truly 
great Asian state if it is dragged down by the Kashmir conflict, and if 
Pakistan remains openly hostile to it. Vajpayee's views are shared by 
the centrist elements of the BJP, including the distinguished Foreign 
and Finance ministers, Yashwant Sinha and Jaswant Singh. Vajpayee's 
standing is such that even his party hardliners will not challenge him 
on foreign policy issues, although there are fringe groups that would 
attempt to end the Pakistan threat once and for all, by war if 
necessary. (Want to say something about a potential successor to 
Vajpayee?)
    My assessment is that Vajpayee's initiative, which led to the 
Islamabad Summit, is serious, but that it is also convenient--
burnishing his image as a statesman just before he leads his party into 
an important national election later this year.

                      DOMESTIC DYNAMICS: PAKISTAN

    Since 1947 Pakistan has sought to change Kashmir's status quo or to 
bring India to the negotiating table by appealing to international 
opinion, and through resolutions in the UN, a formidable legal effort, 
and the use of force-usually through proxies. The Kashmir issue is 
embedded in the very idea of Pakistan, but it also has a strategic 
dimension: Pakistani generals are concerned that if India were not 
pressed in Kashmir, its conventional military superiority over Pakistan 
would be overwhelming.
    Vajpayee's improbable dialogue partner, Gen. Musharraf is something 
of a puzzle. Musharraf lacks strategic vision, he is a bad listener and 
he believes that ruling Pakistan is like running an army division: give 
the orders and they will be obeyed.
    However, after four years he may have learned that this approach 
does not quite work. One suspects he is tired of water issues, 
sectarian rivalries and diplomatic double-talk. Even the strategy of 
using militants to force the Indians to the negotiating table has 
failed. Now that the militants are more interested in his death than 
victory in Kashmir, he may have second thoughts.
    Such doubts are not peculiar to Gen. Musharraf. He represents a 
large civil-military oligarchy, dubbed the ``Establishment'' by 
Pakistanis. This 800-1,000 strong group includes senior army 
commanders, bureaucrats, media leaders, politicians and even some 
Islamists. They know Pakistan is failing, that an economic and military 
race with an expanding India is a losing proposition and that 
Pakistan's friends are unreliable. They believe that once Afghanistan 
is stabilized and al-Qaeda mopped up, the Americans will disappear, 
leaving Pakistan without a major ally. The once-reliable China, alarmed 
at Pakistan's support for Islamic radicals, is moving towards an 
understanding with India over their border dispute even as India-China 
trade soars.

                         PROSPECTS FOR DETENTE

    Will Prime Minister Vajpayee's ``third and last chance'' succeed? 
This time, concessions by both sides (more in language than in deed) 
have started a new peace process. What will it take to bring it to the 
point where it is easier for the two sides to move forward rather than 
backward? In six months, we will know whether the forces in both India 
and Pakistan opposed to a South Asian peace initiative are able to 
sabotage the process. By then it will be feasible for militants to 
infiltrate into Indian-administered Kashmir from the Pakistani side of 
the Line of Control, and the Indian election (scheduled for later this 
year) will have been concluded, probably with a fresh mandate for 
Vajpayee. If the forthcoming talks between government officials do not 
show sign of progress then we may see a new crisis some time later this 
year.
    Will India be able to provide Pakistan with the one thing its army 
desperately needs, a reason to accept a border drawn through Kashmir? 
In the words of one Pakistani officer, the army understands it cannot 
wrest Kashmir from India, but it cannot turn its back on a 55-year 
struggle. At stake is its pride, and it literally calls the shots. 
Indians understand this, but many still observe ``Chicago rules'': the 
best time to kick a man is when he is down. But that only postpones the 
problem. India cannot afford a radical Pakistan as a neighbor and Gen. 
Musharraf, for all his shortcomings and bravado, represents the 
Pakistani establishment.

                            AMERICAN POLICY
 
   While Secretary Powell has claimed credit for the present dialogue, 
the American role has been officially downplayed by India's Ministry of 
External Affairs. If there was an important U.S. role, it should not 
have been the subject of a public boast so soon after the Islamabad 
Summit. However, a somewhat more active role is welcome, and long 
overdue. While American officials have, since 1990, tried to play a 
role in bringing regional crises to a peaceful conclusion, there is no 
evidence that they have moved beyond this to a more pro-active role. As 
the recent Council on Foreign Relations Task Force advocates, the 
United States should have a more ``forward leaning'' posture on the 
Kashmir conflict.
    There are other ways in which Washington can be of help. In summary 
form, these are the six things that the United States can do:

  <bullet> We should not be over-concerned about the stability of the 
        Pakistani regime. Musharrafs death would not bring chaos in 
        Pakistan; Pakistan's overall policies are not likely to change, 
        they are rooted in the interests of the Establishment, 
        especially the corps commanders who form an inner circle of 
        power in the government.

  <bullet> The United States can enrich and influence the internal 
        Pakistani debate on Kashmir's future, but only if it has a 
        presence on the ground. We have abandoned the field to the 
        radical Islamists and those who purport to see a ``Christian-
        Jewish-Hindu'' axis directed against Pakistan and the Muslim 
        world. We need to dramatically increase our information 
        activities in Pakistan, and our exchange programs with key 
        Pakistan institutions, especially the universities and colleges 
        where anti-Americanism is deeply rooted.

  <bullet> India itself needs to be encouraged to continue its policies 
        of normalization with Pakistan, and with its Kashmiri citizens. 
        India's greatest asset is its own rich and vibrant society. The 
        United States should urge India to unilaterally expand access 
        for Pakistan scholars, politicians, and media persons.

  <bullet> Washington should strengthen the fledgling peace process by 
        increasing its funding for regional dialogues that now take 
        place in various SAARC institutions and the Regional Centre for 
        Strategic Studies in Colombo.

  <bullet> Washington should also consult closely with its most 
        important allies. Besides providing technical expertise in 
        border monitoring and other confidence-building mechanisms, 
        America and its allies should use their aid programs to reward 
        India, Pakistan, and various Kashmiri groups for progress in 
        negotiations; they should also encourage Western and Japanese 
        firms to invest in plants and companies that do business in 
        both countries, further strengthening regional economic ties.

  <bullet> Finally, the United States should not take a position on the 
        shape of a final settlement of the Kashmir dispute, but let 
        such a settlement emerge after dialogue among the parties, 
        including Kashmiris on both sides of the LOC. However, it 
        should support the view that Kashmnir is a human rights issue, 
        not merely one of territory or international law. This position 
        maximizes the interests of all parties and would make a final 
        settlement easier: Pakistanis can claim their struggle resulted 
        in more humane treatment of the Kashmiri people, even if they 
        do not join Pakistan or become independent; Indians will remove 
        a blot on their democracy and the Kashmiris, of course, will 
        recover a semblance of normal life.

    The Chairman. Thank you very much, Dr. Cohen.
    I would like to recognize now Mr. Krepon.

 STATEMENT OF MICHAEL KREPON, FOUNDING PRESIDENT, THE HENRY L. 
                         STIMSON CENTER

    Mr. Krepon. Thank you very much, Mr. Chairman. I am 
grateful that you are spending time on this subject and that 
you and your colleagues have invited me to talk to you about 
it. I am going to focus, as you have requested, on the nuclear 
issue.
    When we think back about the first 15 years of the U.S. 
nuclear confrontation with the Soviet Union, those were tough 
times. We went through some pretty harrowing crises in Berlin 
and in Cuba. After the Cuban missile crisis, both our 
leadership and the Soviet leadership said, we have to turn the 
page and try and get some handle on this nuclear danger, and we 
negotiated a hot line agreement, as you well know, and we 
negotiated a ban on atmospheric testing.
    The first 15 years of the India-Pakistan nuclear 
relationship have been very, very rocky. They have had crises. 
They have had a limited, high altitude war. They spent most of 
2002 in the field ready to fight. So the key question is 
whether their leaders, like President Kennedy and Premier 
Khrushchev, can now say, we have had enough of this, we have 
got to turn the page. How can we help?
    I am going to suggest four areas for your consideration and 
I am going to suggest some very specific measures that I think 
will resonate, given your extraordinary record on cooperative 
threat reduction. The first area of nuclear danger is Kashmir. 
Escalation control and nuclear risk reduction begin at this 
dividing line, the Kashmir divide. There are a lot of Indian 
and Pakistani troops in the field along this divide.
    In the past, there has been a lot of violence: artillery 
exchanges, overrunning border posts, lots of military 
engagement along this Kashmir divide. The Government of 
Pakistan in the past has relied heavily on militant groups to 
keep the pressure on India and to try and leverage a more 
favorable outcome in Kashmir. So there is a lot of danger in 
this equation.
    Escalation control has depended on two very, very risky 
assumptions: No. 1, that these jihadi groups that were being 
supported militarily and with intelligence and logistical 
support by Pakistan would not go over the edge, they would not 
go so far as to trigger a war-provoking incident. That is the 
first assumption. The second assumption has been that the 
Government of India would not cross into Pakistani territory 
for lesser offenses. So that has not been a very good basis for 
nuclear risk reduction.
    Right now I think, with respect to Kashmir, it is essential 
that four things happen. No. 1, it is essential for the 
Government of Pakistan, as Ambassador Wisner has said, to 
continue the current cease-fire and to continue to refrain from 
providing military, intelligence, and logistical support to 
jihadi groups that are ready to cross.
    No. 2, it is essential in my view for the Government of 
India to continue to engage disaffected Kashmiris, which they 
have begun to do, and to continue to take steps to address the 
honor and the dignity of Kashmiris, who have been very 
longsuffering.
    No. 3, it is essential for the Government of Pakistan to 
stop holding nuclear risk reduction measures hostage to a 
satisfactory outcome on Kashmir.
    No. 4, it is essential for the Government of India to 
demonstrate responsible nuclear stewardship by engaging 
Pakistan in a serious and substantive way on Kashmir. That is 
not just good for Kashmir; it demonstrates responsible nuclear 
stewardship.
    What can the United States do to help this process? I would 
ask you to consider three things. We can provide more and more 
expedient help to the Governments of India and Pakistan to help 
secure their borders. No. 2, we can provide financial 
assistance, if both governments so desire, for initiatives that 
improve the humanitarian, developmental or other assistance to 
those in Kashmir who have greatly suffered. No. 3, we can help 
the Governments of India and Pakistan, if they so desire, to 
monitor agreements they may reach regarding the pullback of 
conventional forces along this Kashmir divide, regarding the 
thinning out of troops and the closing down of training 
facilities on both parts of Kashmir. If they ask us, we ought 
to be prepared to help.
    The second area of nuclear risk reduction relates to 
nuclear terrorism. The risk of nuclear war has now been 
substantially reduced in South Asia, but the risk of nuclear 
terrorism remains very, very high. As you are so well aware, 
the first act of nuclear terrorism is going to be a momentously 
bad event, and it may well happen in South Asia.
    There are a lot of sources of nuclear material, not just 
material for weapons programs, but material for cancer 
therapies, for the irradiation of spices. There are dirty bomb-
making materials all over these two countries, and they are 
poorly guarded. They are very susceptible to insider threats. 
There have been instances of thefts of this material, most 
recently, a significant instance in India last August.
    What can we do to help? I think we can work together with 
India and Pakistan, because we all have this common problem of 
nuclear terrorism. We can work with them to help them safeguard 
materials at their hospitals, at their civilian research 
laboratories, and wherever else they ask for assistance. We 
ought to be talking to them, getting their ideas about improved 
security and offering them our ideas of best practices, of 
lessons learned, of design approaches to specific facilities.
    This ought to be a collaborative venture. Nuclear terrorism 
is something that all of us are worried about, and it is easier 
to talk about nuclear terrorism and civilian facilities than it 
is to talk about military facilities. But I think if they are 
prepared to go there we ought to go there as well.
    The third area that I would ask you to consider for nuclear 
risk reduction involves measures that India and Pakistan can 
take once official dialog resumes. Security analysts, 
government officials in India and Pakistan have thought a lot 
about this and they have good ideas. They have thought about 
creating nuclear risk reduction centers. They have thought 
about specific measures that relate to the movement and flight 
testing of ballistic missiles to reduce dangers associated with 
this practice, especially in periods of crisis.
    There are lots of other areas where they are ready to go if 
Pakistan relaxes its linkage to Kashmir and if the Government 
of India talks seriously to Pakistan about Kashmir. With 
Ambassador Wisner, I agree it makes sense for us to encourage 
both parties to work on this agenda to demonstrate responsible 
nuclear stewardship.
    Last, a fourth general area relates to steps that might be 
taken to strengthen domestic controls over proliferation. I 
have noticed that the Bush administration has laid out a glide 
path with the Government of India about working with them on 
technology transfers in certain areas. But we have also said 
that the Government of India needs to work harder on its 
domestic legislation on export controls and technology 
transfers.
    The situation in Pakistan, of course, is of a lot greater 
concern. What are we to make of these reports? Iran, Libya, 
North Korea; there may be other reports to follow. These 
transactions appear to have been initiated at different times 
and under different circumstances and perhaps even for 
different reasons.
    The nuclear program in Pakistan is a very expensive 
undertaking. The political leader who initiated it said that 
Pakistanis would be prepared to ``eat grass'' in order to 
finance this program, it was that important to Pakistan's 
national security. Perhaps in order to pay for this program 
economic assistance might have been welcomed, and it might have 
come with strings attached. We do not know, but I suspect we 
will find out.
    Another possible rationale for these transactions: Pakistan 
may have experienced bottlenecks in their production of certain 
items and they might well have engaged in barter arrangements 
to override those bottlenecks, and this may well be the primary 
rationale for transactions with North Korea.
    The most puzzling case is Iran because when you interview 
very senior Pakistani military officers, including those who 
are responsible for the nuclear program, they would tell you, I 
suspect, that helping Iran with a nuclear program would be nuts 
because it would present Pakistan with a two-front nuclear 
threat, it would require changes in their basing, changes in 
their force requirements. It would require them to take another 
look at their doctrine. It would be severely prejudicial to 
Pakistan's national security to help Iran.
    But the situation might have looked different around 1990 
when, as you will recall, the United States stopped supporting 
the Pakistan military, when Pakistan was facing another severe 
crisis with India over Kashmir, and when Pakistan had an army 
chief who believed that Iran could become a strategic ally.
    So there are different rationales at different times, but 
the same basic problem. And President Musharraf has given us 
another rationale and that is that some very senior officials 
in the research labs might have been out for financial gain.
    In my view, a public accounting of Pakistan's misdeeds is 
less important than private decisions and private oversight to 
make sure that this has stopped and it has stopped totally, a 
recognition that these types of proliferation have caused 
grievous harm to Pakistan and should not be repeated. Flat 
denials are not the way to get out of this mess, and it appears 
that the Government of Pakistan now acknowledges this.
    I do not think we help Pakistan by offering simple 
remedies, by issuing threats, or by making dire predictions of 
failure, state failure. Pakistan has shown remarkable 
resiliency, despite a series of really bad decisions by their 
national security establishment, and I believe that Pakistan is 
quite capable of rebounding in response to good decisions by 
their national leadership.
    Pakistan is a troubled state, but with good decisions and 
with our help it is capable of getting out of trouble.
    Thank you, sir.
    [The prepared statement of Mr. Krepon follows:]

Prepared Statement of Michael Krepon, Founding President, The Henry L. 
                             Stimson Center

    Mr. Chairman and Members of the Committee:
    Thank you for holding this hearing on South Asia, and on ways to 
reinforce positive developments in the region generated by Prime 
Minister Vajpayee and President Musharraf.
    In the fifteen years since aquiring nuclear weapons, India and 
Pakistan have experienced heavy weather. The last five years of this 
stretch have been the worst. After testing nuclear weapons in 1998, 
India and Pakistan fought a limited, high-altitude war, and in 2002, 
their armies spent most of the year ready for battle.
    Before we pass judgment on their brinksmanship, we might recall 
that the first fifteen years of the nuclear standoff between the United 
States and the Soviet Union were also very harrowing. We looked 
directly into the nuclear abyss during crises over Berlin and Cuba. 
after this extremely dangerous passage, Washington and Moscow were 
finally ready to take steps to reduce nuclear dangers. After the Cuban 
missile crisis, we agreed to establish a ``hotline'' for secure 
communication in crisis, and we negotiated an end to nuclear testing in 
the atmosphere. The nuclear rivalry between the United States and the 
Soviet Union was eventually tamed by a long and difficult process of 
negotiating confidence-building measures, arms control, intrusive 
verification, and finally, deep cuts in nuclear forces.
    President Musharraf and Prime Minister Vajpayee now have an 
historic opportunity to engineer a momentous shift from recurring 
crises to nuclear safety. My testimony will give you a sense of how 
this transition might take shape, and what the United States can do to 
help.
    Nuclear dangers in South Asia have been linked to Kashmir in 
several ways. To begin with, there is a significant concentration of 
Indian and Pakistani forces stationed near the Kashmir divide, where 
they have regularly engaged in artillery exchanges and minor 
skirmishes. In addition, Pakistan's Kashmir policy has relied heavily 
on militant groups to punish India and to leverage a favorable outcome. 
Consequently, escalation control on the subcontinent has depended 
heavily on two risky assumptions: first, that jihadi groups would 
refrain from such horrendous acts of violence as to spark a war; and 
second, that the Indian government would refrain from attacking 
Pakistan in response to lesser grievances.
    Nuclear safety cannot possibly rest on these two assumptions. Since 
escalation control and nuclear risk reduction begin along the Kashmir 
divide, this is a key area for Pakistan and India to focus their 
efforts. Prospects for nuclear safety are now brighter because there is 
a ceasefire along the Kashmir divide and because the level of 
infiltration across this divide by jihadi groups based in Pakistan is 
way down.
    To take advantage of the current opportunity to reduce nuclear 
dangers on the subcontinent, the following steps appear essential:

          1) For the government of Pakistan, to sustain the current 
        ceasefire and to continue to refrain from providing military 
        and intelligence support to infiltration.

          2) For the government of India, to continue to engage 
        disaffected Kashmiris and to take specific measures 
        demonstrating respect for their honor and dignity.

          3) For the government of Pakistan, to change its past 
        practice of holding nuclear risk-reduction measures hostage to 
        a satisfactory resolution of the Kashmir issue. Instead, it is 
        crucial to demonstrate responsible nuclear stewardship by 
        negotiating and properly implementing measures to promote 
        nuclear safety.

          4) For the government of India, to demonstrate responsible 
        nuclear stewardship by engaging in substantive and sustained 
        dialogue with Pakistan over the Kashmir issue.

    What can the United States do to help in this regard? There are 
several steps we can take to facilitate an honorable outcome to this 
tragic, longstanding impasse.

          1) We can provide more, and more expedient, help to the 
        governments of India and Pakistan to secure their borders.

          2) We can provide financial assistance, if both governments 
        so desire, for initiatives that provide humanitarian, 
        developmental, and other assistance to those who have greatly 
        suffered over the past fifteen years of violence.

          3) We can help the governments of India and Pakistan, if they 
        so desire, to monitor agreements they might choose to conclude 
        regarding the pullback of conventional military equipment, 
        forces, and training facilities away from the Kashmir divide.

    As I mentioned, nuclear risk reduction begins, but certainly does 
not end, in Kashmir. Mr. Chairman, you and other Members of this 
Committee understand that the first act of nuclear terrorism will be a 
momentously bad event. Even though an act of nuclear terrorism might 
produce relatively few casualties, it could generate significant 
psychological and economic impacts. The crossing of this nuclear 
threshold is also likely to trigger copycatting. Intense regions like 
South Asia, the detonation of a ``dirty bomb'' could scuttle a peace 
process and generate severe pressures for escalation.
    Material that can be used to make dirty bombs resides in many 
poorly guarded hospitals and civilian research labs in India and 
Pakistan. These facilities are very susceptible to ``insider'' threats, 
such as a security guard or a hospital worker who is sympathtic to an 
extremist group and who aids in the theft of this material.
    Like the United States, India and Pakistan are very vulnerable to 
threats of nuclear terrorism. It is vital that we help each other to 
prevent such acts.
    How can the United States help in this regard?

          1) By expanding the scope of U.S. Cooperative Threat 
        Reduction Programs to encompass efforts to safeguard dangerous 
        materials that could be used for nuclear terrorism. Much can be 
        gained by engaging India and Pakistan in efforts to design 
        security measures and to discuss best practices and lessons 
        learned for the prevention of nuclear terrorism.

          2) By providing Pakistan and India with devices to improve 
        security at facilities such as hospitals and research labs, if 
        they so desire.

          3) By exchanging ideas on personnel reliability programs to 
        help safeguard dangerous materials at these facilities.

          4) If they so desire, to offer wide-ranging technical 
        assistance to India and Pakistan to guard against the entry of 
        radiological materials at border crossings and ports of entry.

    Aside from Kashmir and nuclear terrorism, what else could be done 
to reduce nuclear dangers on the subcontinent and to reinforce positive 
momentum in India-Pakistan talks?
    Experts in both countries have thought a great deal about nuclear 
risk-reduction measures that could be negotiated and implemented 
quickly, once political conditions permit. My sense is that much could 
be accomplished in this regard if, as I hope, Pakistan stops holding 
these measures hostage to a Kashmir settlement, and if India engages 
Pakistan and dissident elements in Kashmir on a serious and sustained 
basis.
    More specifically, government officials and nongovernmental 
analysts in South Asia have indicated that they can demonstrate 
responsible nuclear stewardship by negotiating and establishing nuclear 
risk reduction centers. There is also a pressing need to negotiate and 
properly implement measures to reduce risks associated with ballistic 
missile flight tests, particularly during periods of crisis.
    Many other items could be added to this minimal list. While the 
United States can surely encourage both countries to follow through 
with measures that reinforce responsible nuclear stewardship, taking 
these steps is obviously their job, not ours. Looking further ahead, 
there are many important subjects that could benefit from dialogue, 
including discussions of nuclear doctrine and ways to reinforce stable 
deterrence on the subcontinent.
    A fourth general area to promote nuclear safety relates to steps 
that Pakistan and India could take to strengthen domestic controls 
against proliferation. While neither country is a party to the nuclear 
nonproliferation treaty, both have pledged not to initiate the 
resumption of nuclear testing. If, however, another nation goes first, 
one or both countries are likely to join in a chain reaction of 
underground testing. I hope that Members of Congress will consider this 
when contemplating the possible resumption of U.S. nuclear testing and 
the merits of the Comprehensive Test Ban treaty.
    Controls against proliferation would also be advanced if India and 
Pakistan stopped producing fissile material for their weapons. A 
global, verifiable ban designed to do so, called the ``cutoff'' treaty, 
will be difficult to negotiate as long as India and Pakistan feel the 
need to increase the size of their nuclear arsenals. A process of 
normalization on the subcontinent can help remove this impediment to a 
cutoff treaty. Another impediment is the reluctance of the Bush 
administration to consent to a resumption of these negotiations in 
Geneva.
    Even though they are outliers to the nonproliferation treaty, India 
and Pakistan have pledged not to help others acquire the bomb. Domestic 
legislation in this regard appears to be inadequate in both countries. 
The Bush administration has made strengthening measures in India a 
condition for upward movement on the glide path for increased 
cooperation on technology transfers.
    Pakistan's proliferation practices are of great concern. We will 
know more about the extent of help provided to Libya and Iran through a 
process of international verification that is now underway. Public 
reports indicate far more extensive nuclear commerce with North Korea. 
We cannot exclude the possibility that other transactions will come to 
light.
    What are we to make of these reports? First, these transactions 
appear to have been initiated at different times and for different 
reasons. Pakistan's nuclear program was an expensive undertaking. The 
political leader who initiated the program, Zulfikar ali Bhutto, said 
that his people would ``eat grass,'' if necessary, in order to pay for 
it. Economic assistance for Pakistan's nuclear program, perhaps from 
Libya, might have been welcomed--and might have come with strings 
attached.
    Another possible rationale for nuclear commerce might have been 
bottlenecks in producing a viable nuclear deterrent against the 
prospect of an advancing Indian program. This might well be the primary 
rationale for barter transactions with North Korea.
    The most puzzling case is Iran, because the Sunni-Shia fault line 
within Islam is situated on Pakistan's border with Iran. Moreover, a 
nuclear-armed Iran would present Islamabad with a two front nuclear 
threat, requiring unwelcome adjustments to Pakistan's force 
requirements, basing, and doctrine.
    Helping Iran to go nuclear would be severely prejudicial to 
Pakistan's national security. But the situation might have looked 
somewhat different around 1990, when Washington had cut military ties 
to Pakistan, when Pakistan was facing a war scare with India over 
Kashmir, and when Pakistan's army chief believed that Iran could become 
a strategic ally.
    While the strategic rationales that I have postulated for each of 
these cases vary, they all suggest some degree of top-down 
authorization. But authorization might not have been coordinated among 
the country's top three positions--the army chief, the president, and 
the prime minister. In addition, oversight of sensitive nuclear 
commerce might have been slack in some instances. President Musharraf 
has publicly intimated that some nuclear scientists acted improperly 
for their financial gain.
    The full dimension of these transactions and the decision-making 
behind them are likely to remain murky. In my view, a public accounting 
of Pakistan's misdeeds is less important than private decisions and 
oversight mechanisms to stop practices that have resulted in grievous 
nuclear proliferation--including transactions that have injured 
Pakistan's national security. Flat denials are not the way out of this 
mess, which the government of Pakistan now appears to acknowledge.
    We do not help Pakistan by offering simple remedies, by issuing 
threats, or by making dire predictions of a failed state. Pakistan has 
shown remarkable resiliency despite bad leadership decisions. Pakistan 
is also quite capable of rebounding in response to wise leadership 
decisions. Pakistan is a troubled state, but with good decisions and 
with our help, it is capable of getting out of trouble.
    Much therefore depends on the ability of Pakistan's national 
security establishment to recognize dangerous policies that have 
mortgaged the country's future. Part of the problem lies in the closed 
nature of this establishment. Part of the solution therefore lies in 
strengthening political parties in Pakistan and creating more balance 
in civil-military relations.
    President Bush has proposed a long-term assistance package for 
Pakistan. I support this initiative. If you decide to change the 50-50 
balance between military and nonmilitary assistance proposed by the 
President, I recommend that you do so by addition and not by 
subtraction, with added funds going to the non-military side of the 
ledger. I understand, however, that adding to the President's request--
or even maintaining it--would be difficult for the Congress, unless 
there is concrete evidence that Pakistan's leaders have chartered a 
new, and far better future for their country.

    The Chairman. Thank you very much, sir.
    Let me just indicate to members that we have a vote in 
about 25 minutes. I wish this was not so, but nevertheless it 
is. So I would suggest that we have a 6-minute limit. There are 
four of us on the questions, and I will yield a minute or two 
more to my distinguished ranking member in case he may need 
that for his initial opening comments in addition to the 
questions. I ask my questions last, so in case there is any 
overlap, why, we work it out that way.
    But I call now on the ranking member, Senator Biden, for 
his comments and questions.
    Senator Biden. Thank you, Mr. Chairman. I apologize, I was 
not here at the outset. I think Senator Sarbanes and I are the 
only two fellows that commute from our home States, him from 
Baltimore, me from Wilmington. The Amtrak trains north were 
shut down, so I drove, and obviously I was a little late.
    Senator Sarbanes. I think the highways as you came through 
Maryland were perfectly clear.
    Senator Biden. They were, until I got to the D.C. line, 
until I got to the D.C. line, which is literally true. There 
was a backup.
    But at any rate, I would ask unanimous consent that my 
opening statement be placed in the record.
    The Chairman. It will be placed in in full.
    [The prepared statement of Senator Biden follows:]

           Opening Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, I applaud you for calling this hearing on a vitally 
important topic. In the past, I have sometimes referred to South Asia 
as the most potentially dangerous place on the entire planet.
    Over the past few weeks, the past few months, and the past year, I 
am happy to say that this region has witnessed the beginnings of what I 
hope will be a lasting peace.
    What a difference a year makes. In January of 2003, the two nations 
had nearly a million soldiers braced for war.
    In January 2002--when I was in Kabul, and harsh weather prevented 
me from traveling to Islamabad and Delhi for meetings with the leaders 
of both countries--things looked even worse.
    A few weeks earlier, on December 13, 2001, terrorists had launched 
a brutal assault on the very heart of the Indian government--on 
Parliament House in New Delhi. Had the attack succeeded in killing 
India's top leaders, the ensuing battle could have been cataclysmic.
    But over the past ten months, a spirit of reconciliation has seemed 
to be growing. Indian Prime Minister Vajpayee pledged a final effort--
the last of his career, he says--for peace.
    Pakistani President Musharraf has shown great bravery breaking the 
rhetorical logjam on Kashmir, and renewing his pledge to crackdown on 
cross-border terrorist groups taking shelter in Pakistani territory.
    The two sides agreed to a ceasefire along the Line of Control--and, 
by all accounts, they have been honoring it.
    And then, on January 6, in the Pakistani capital of Islamabad, the 
leaders met for the first time in more than two years. The joint 
declaration they announced was deliberately low-key, and appropriately 
so:
    If a lasting peace does arrive this time, it will not come in by 
leaps and bounds, but by a series of careful, measured steps. Steps 
that are no less courageous for all their care and measure.
    A lasting peace must be a peace with honor, one in which all sides 
are winners. The people of India and Pakistan--and Kashmiris on both 
sides of the Line of Control--must feel as if their aspirations and 
their security considerations are fully recognized.
    A lasting peace can be facilitated by the United States and other 
nations, but it cannot be imposed by any outside power. The only peace 
that will survive will be one forged and negotiated by the parties 
themselves.
    And we in the United States must indeed be prepared to facilitate 
such a peace. It is in our own national interest, and the interest of 
the world community. Even if the specter of nuclear weapons were not 
part of the equation, the threat of war in South Asia would be a 
prospect too dangerous to be ignored.
    What can we do to help? That depends what the parties themselves 
request. India and Pakistan have pledged to reopen bus service between 
the two main cities in divided Kashmir--and there are suggestions that 
this will be merely the first step towards more entry points and softer 
borders. Perhaps we can help with technical assistance, and the 
expertise we've gained from managing thousand-mile borders to our north 
and our south.
    President Bush has pledged a $3 billion aid package to Pakistan, to 
be spread over the coming five years. We in Congress will have to 
consider this proposal very carefully. Questions we'll have to consider 
include:

  <bullet> Is this the right figure?

  <bullet> Should any conditions be attached?

  <bullet> Is the mix of aid proposed by the President--half for 
        military aid, half for non-military--the right ratio?

    This last question is, perhaps, the most important. A Task Force of 
the Council on Foreign Relations has proposed shifting the ratio from 
1:1 to 1:2--that is, keeping the overall aid figure stable, but 
doubling the percentage of that goes for such things as schools and 
hospitals.
    This may well be a very constructive proposal. When President 
Musharraf was here in Washington in June, he highlighted secular 
education as Pakistan's number one domestic requirement. All of our 
witnesses today served on the Council Task Force, so this is one topic 
on which we can have a very fruitful discussion.
    Our witnesses are all experts in their fields:
    Ambassador Frank Wisner, former U.S. Ambassador to India, is now a 
major figure in the blossoming business relationship between our two 
countries.
    Dr. Stephen Cohen, of the Brookings Institution, knows more about 
the Pakistani and Indian militaries than just about anybody who doesn't 
have epaulettes on his shoulders.
    Michael Krepon, founding president of the Henry L. Stimson Center, 
has an unrivalled knowledge of nuclear confidence-building measures, as 
well as of such cutting-edge topics as space-based weaponry and missile 
defense.
    I welcome all of our witnesses, and I look forward to an 
informative and interesting hearing.

    Senator Biden. The essence of my opening statement talks 
about what can we do to help, and all of you have spoken to 
that in one form or another.
    Let me begin and work my way back, with you first, Michael. 
The questions that you raised, I think the way you phrased it, 
the way you organized your statement, is extremely helpful. But 
there are a few specifics I would like to ask you if I may. The 
first is, when you talked about the three kinds of things we 
could do in terms of dealing with reducing the tension between 
India and Pakistan and dealing with the proliferation issue, 
the first I would like to ask you--you said help secure their 
borders, possibly humanitarian assistance and financial aid for 
Kashmiris, and to monitor an agreement if one is reached 
relative to Kashmir.
    My first question is, how--what form would helping them 
secure their borders take? Are you considering the use of our 
intelligence assets, our satellites? Are you talking about 
American troops?
    Mr. Krepon. I am not talking about American troops, sir. We 
have--and you know this better than most--we have helped 
monitor disposition of forces and military equipment in the 
Middle East for some time, using overhead assets.
    Senator Biden. That is what I thought you meant. I want to 
make it clear for those who may be listening that, based on my 
knowledge of you, what was not being proposed was the 
disposition of American forces along the Indian-Pakistani 
border or the line in Kashmir, at this point at any rate.
    The second question I have is, I could not agree with you 
more about the need to deal with radioactive material that 
comes out of hospitals and many other sources in India and 
Pakistan, and I am a little concerned about--I am very 
concerned about that, the so-called dirty bomb--and I will make 
a distinction here. You and I know what we are talking about, 
but again for the record, we are not talking about a 
thermonuclear reaction, chain reaction causing a nuclear or 
thermonuclear explosion. We are talking about the spread of 
radiation and its consequences, that would primarily be 
economic and panic whole populations when we talk about the 
dirty bomb.
    But the very things that you propose that we can be helpful 
in dealing with helping the Indians and the Pakistanis if they 
sought our help are the very things we should be doing here in 
the United States, and we have not done them yet. We had 
extensive hearings on this in this committee, and I am 
perplexed as to why the Homeland Security Department, our new 
Cabinet position, has not focused on this very well at all.
    But do you have any reason to believe that the Indians or 
Pakistanis would seek or welcome suggestions as to how we could 
help them gain more control over radioactive materials, that 
range from everything from a discard from x-ray machines to a 
whole range of other things, a whole lot of things. Do you have 
any sense that they would welcome that or seek that help?
    Mr. Krepon. Senator, it is the easiest way in. It is the 
easiest way in to deal with collaborative efforts to reduce 
nuclear danger. The sensitivity to the dirty bomb problem is 
growing markedly in India and Pakistan over the past 6 months. 
There was initially a casual disregard for it. It is changing. 
I think this is the door that is most ajar.
    Senator Biden. The reason I raise it in the way I raised it 
was I think we have to be extremely proactive privately in 
offering this. I cannot imagine if we do not come essentially 
with a prescription and say, we are ready to help and let me 
tell you what the prescription is and the kinds of things we 
think could be done, et cetera.
    You very wisely leavened every one of your statements by, 
with some version of the following phrase: if they ask us. My 
concern is no one is going to ask us any of the things that 
should be asked. At least I have not seen any evidence yet that 
they are likely to ask us, unless someone has--Dr. Cohen, you 
were about to demur from that statement? Are they asking?
    Dr. Cohen. I think this is a task which is important, 
should be done, can be done. But I think that the United States 
is probably the wrong country to do it because it will be seen 
as the camel's nose in the tent by those in the nuclear 
establishment. I would say the Japanese, for example, would be 
a far better country to approach South Asia in regard to this.
    Senator Biden. How do you respond to that, Michael?
    Mr. Krepon. I disagree. Our Department of Energy has been 
prodded to look into this. We have the capabilities. We have 
the sensors. We have design information. We are working this 
problem and we are ready to go. If we are proactive and 
sensitive to the problem that Steve Cohen has raised, I think 
we can make headway.
    Senator Biden. I see my time is up. Let me just say, Frank, 
I think the report was first-rate that you guys wrote, and I 
absolutely agree with you, and if we have a second round, which 
we probably will not, I am going to come back to the proposal 
as to changing the mix of the $3 billion. I could not agree 
with you more, and I think that the education piece is a slam-
dunk, it is an easy way to go, and it is the single most 
significant thing we could do that is not likely to raise all 
the red flags about us controlling the process.
    But my time is up. I thank you for that. I may, Frank, with 
your permission--I do not want to make additional work for you, 
but if we do not have time--submit to you in writing three to 
four, actually each of you, three or four, probably not even 
that many, questions that I would like you to expound on--
expand on, I should say, beyond what is in your statements, if 
I could.
    Mr. Wisner. I would be pleased to answer them.
    Senator Biden. Thank you. It was a first-rate report.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Biden.
    We would ask that the witnesses respond to any additional 
questions.
    Mr. Wisner. It will be our pleasure.
    The Chairman. Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman.
    I thank the gentlemen for their testimony also. It seems as 
though so much depends in the rapprochement between Pakistan 
and India on the settlement of the Kashmiri dispute and, per 
the joint statement, the commencement of discussions are 
supposed to be in February and that is in a few days. What 
exactly is transpiring? February is almost here. What is 
happening? We will start with Dr. Cohen perhaps.
    Dr. Cohen. Yes. They have agreed to talks at the Foreign 
Minister level and then those talks will probably move to a 
lower level. My guess is that, unless Vajpayee and Musharraf--
who is a politician now--keep on top of this, it will 
essentially evolve into talks that will go on forever. That is 
why I am a little pessimistic. Unless the senior leadership 
believes that they must move quickly and can keep pressure on 
the diplomats, on the bureaucrats, the natural tendency for 
government officials in both countries is to do nothing.
    So I think that the senior leadership has to see that this 
is something important and they must impose deadlines on their 
own people. But it also requires a sort of reciprocal process 
of concession-making on both sides. Here is where Indian 
diplomacy and Pakistani diplomacy have to give something and 
get something back.
    So far the history has been that one side has given 
something, the other side has not responded, and that is the 
end. There have been five or six major detentes between the two 
countries which have led nowhere. So I would not bet my job on 
this reaching a successful conclusion. But again, this is, as 
Ambassador Wisner said, the best opportunity we have had in 
many years for a dialog.
    Senator Chafee. Any of the other witnesses want to say what 
we can do? It seems so critical that this opportunity not slip 
between all of our collective fingers.
    Mr. Wisner. Senator Chafee, I would underscore what Steve 
just said: Be wary, but this is an absolutely extraordinary 
opportunity. I believe India and Pakistan would not be where 
they are today had the two leaderships not made a decision that 
it was in their national interest to begin and pursue 
negotiations of all their differences.
    The negotiations will start on the 16th of February and 
last for 2 days. But I also believe that nothing will happen 
between lower levels that is not very closely followed by 
Vajpayee and Musharraf and and they had not committed their 
authority. It would be out of keeping with this round of 
negotiations, as opposed to previous rounds, if other elements 
of the governments captured and frustrated the negotiations.
    So I have my fingers crossed. But where the issue becomes 
extremely complicated is how to avoid the possibility of the 
settlement of Kashmir which is difficult to obtain blocking 
understandings on a variety of border issues, trade issues, 
even potentially the Siachen Glacier. Here it is my view that 
the parties also need find--could find a way forward if they 
look at ways of disaggregating the Kashmiri problem, of talking 
about it in terms of opening communications and trade between 
the two parts of Kashmir, if they talk about thinning troops, 
if they talk about and if India addresses human rights 
problems, the disappearance of large numbers of Kashmiris.
    In other words, the parties should not try initially to 
resolve for final status--a decision on sovereignty. Which flag 
flies over Kashmir. You leave that for a later date.
    I believe, as my two colleagues have made the point earlier 
that we should not be seen to be on the stage. We are not going 
to find the solutions. But we certainly can help the two 
governments think about them. That is the art of diplomacy. And 
being active, as Senator Biden said, on the nuclear question 
does not mean being public. It means being busy, active, 
engaged, taking the same determined approach that has been 
demonstrated since the December crisis in 2001. I think we can 
help clarify issues and bring forward some useful conclusions.
    Senator Chafee. Thank you, Ambassador.
    Mr. Krepon. Senator Chafee, I root for the Boston Red Sox 
and I am an optimist by nature. I think that----
    Senator Biden. You sure the hell are.
    Mr. Krepon. This is the year.
    Senator Biden. That is exactly what Senator Chafee said 
under his breath: This is the year. I admire you all.
    Mr. Krepon. I think that the current geometry is better for 
progress in South Asia than any time since I have been paying 
attention. Kashmir is a very, very tough problem. My sense is 
that people naturally go immediately to the territorial aspect 
of the solution, which is the hardest part. If you think 
instead in terms of a series of overlays above whatever the 
territorial arrangement might be at the end of the day, 
overlays that help Kashmiris lead normal lives, what can India 
and Pakistan do to relieve the burdens that are now placed upon 
them, I think then we get to that end state.
    There is a lot both countries can do to relieve the 
pressure and I think that is a good place to start for them.
    The Chairman. Thank you very much, Senator Chafee.
    Senator Sarbanes.
    Senator Sarbanes. Well, thank you very much, Mr. Chairman.
    I first of all want to thank the panel for their very 
helpful testimony. Let me ask you this question, in an 
organizational sense: Would it help if the U.S. Government had 
a--I do not know whether you want to call them a special envoy 
or a designated coordinator, someone whose responsibility was 
to work on the India-Pakistani relationship? I know our 
Ambassadors are out there in each country and we have Assistant 
Secretaries of State and the various desks. But is that just a 
further bureaucratic complication or would it serve a purpose 
if we were to do that?
    Mr. Wisner. Senator Sarbanes, I have thought about this 
many times over the years and I have come down clearly in my 
own mind that naming a special envoy or a special coordinator 
would not be wise. I believe such a designation would put the 
United States in the limelight and distract the parties from 
reaching the decisions they must find. The special negotiator 
would be pushed to state American views and positions. We want 
India and Pakistan positions.
    A special negotiator would be especially unwelcome to 
India. Who would see it as an act of interference and 
potentially of bias.
    Rather, I think there is another way to proceed. We touched 
on it in the report, and that is for the U.S. Government to 
bring together the several components of our foreign policy 
bureaucracy and have them meet regularly and keep their eye on 
every development, putting forward to their own chains of 
command notions the solutions initiatives which take advantage 
of promising circumstances.
    What I have in mind, under the chairmanship either of State 
Department or the NSC, a regular meeting of your intelligence 
community, the agencies with a direct stake in South Asia, 
particularly Defense, the State Department's own policy, non-
proliferation and intelligence assets, to review regularly what 
is happening in the region, define how can we position 
ourselves, how to use U.S. influence, operating through our 
Ambassadors and if necessary use the Secretary, the Deputy 
Secretary, and the President.
    I know from first-hand discussions with leaders in New 
Delhi that this kind of quiet, purposeful American nudging is 
appreciated. That is what they are looking for and they can 
manage that politically.
    Senator Sarbanes. Would the others like to comment on this 
matter?
    Mr. Krepon. I would agree with that. I think that the South 
Asia Bureau is just overwhelmed with the events in Afghanistan 
and there is no other place in the government that really has 
the ability to bring these groups together within the U.S. 
Government. So I think we need a facilitator whose job it is 
full-time to think, how can we advance the process, peace 
process in South Asia, while others are obsessed with the day 
to day.
    Senator Sarbanes. But that is different from what 
Ambassador Wisner just said. He is opposed to that, if I 
understand him correctly.
    Mr. Wisner. I am opposed to the thought of a designated 
special negotiator cum envoy. If there was a person inside the 
bureaucracy who coordinated activities----
    Senator Sarbanes. Are you opposed to that or in favor of 
that?
    Mr. Wisner. I would be in favor of that.
    Senator Sarbanes. But you are worried that that would 
evolve into what you are afraid of?
    Mr. Wisner. We are all capable of drawing lines. I 
recommend the job be done at the director or deputy assistant 
secretary level.
    Mr. Krepon. Let us say that the notion of providing 
technical assistance to India and Pakistan on nuclear terrorism 
is a good idea, you agree it is a good idea. How do we get the 
executive branch in its disparate parts to really push this 
idea quietly? How can we help India and Pakistan?
    Senator Sarbanes. In addition to Chairman Lugar scheduling 
hearings like this in order to move it along.
    Mr. Krepon. Right. I am not sure that a mechanism is now in 
place in the executive branch to push good ideas that cross 
agency lines forward. I agree with Ambassador Wisner that a 
high profile individual with a big title may not be the right 
way to go. But we have got to have something as an alternative 
to move ideas forward. I do not see it.
    Senator Sarbanes. Mr. Chairman, if I have any time left I 
yield it to the chairman. I know we have this vote coming up. I 
think it is always advisable for members of the committee to 
yield time to the chairman.
    Senator Biden. I think it is a great idea.
    The Chairman. Thank you very much, Mr. Sarbanes.
    Senator Sarbanes. I know the ranking member will take me to 
task for that.
    Senator Biden. No, I think that is a very good idea.
    Senator Sarbanes. Gentlemen, thank you very much.
    The Chairman. Let me sort of take up where Senator Sarbanes 
left off, because I think that his questions brought forward a 
very important set of responses from the witnesses. I just 
would observe, as you already have, that after September 2001 
our government underwent a radical change with regard to our 
interest in the two countries, quite apart from our diplomacy.
    I remember, as other members can, Secretary Powell 
approaching us in the secret spaces of the Capitol within days 
and saying: You ladies and gentlemen must lift all sanctions 
with regard to India and Pakistan, however they came about, 
however justified--military coup, nuclear tests, human rights 
violations, whatever it might have been. And some members 
demurred a bit and said: All of them, and permanently? He said: 
Yes, all of them and permanently; it is a new situation.
    That is a very radical departure in American diplomacy, to 
wipe the slate of almost all the decisions, the discussions we 
have had, and the strictures and so forth. Now, having got to 
that point, then the question is what is the substitute? How 
then, having gotten rid of the sanctions, do you move ahead 
with some new relations?
    In fairness to everybody, a lot of good work has been done, 
which you have acknowledged, and we now come, in part because 
of our diplomacy, but in large part, as you have said, because 
of the leadership of Mr. Vajpayee and President Musharraf, who 
are essential to this. My understanding is that, as you have 
stated, without their constant attention to the whole thing, 
why, it is likely to fall off the tracks. Dr. Cohen has 
cautioned this, that that would be the normal situation anyway, 
even given extraordinary leadership.
    In the meanwhile, they have an election in India at some 
point this year in which the leader, even despite thought about 
legacy, may be sorely tested in terms of the constancy of this 
sort of thing. President Musharraf may or may not escape 
assassination attempts. There are assurances if he is 
assassinated that the vice chief of staff takes hold and there 
is still stability. But whether stability and movement on this 
diplomacy--they are two different things.
    The question that Senator Sarbanes has brought forward is, 
what do we do? What you are suggesting, it seems to me, is that 
somehow our government on the administration level organize a 
committee, an appropriate one in which we vet weekly, I think 
as you said, Ambassador Wisner, the best ideas on nuclear 
security, on commerce, humanitarian aid, what about Kashmir, 
human rights, the whole business, and then through our 
Ambassadors to India and Pakistan, through these normal 
channels, keep insinuating the best ideas, so that they might 
also, as they enter conversations, hopefully fairly vigorously, 
and hands-on diplomacy, attempt to keep an agenda going, as 
well as to show encouragement of the two leaders that we care 
and that we are not obtrusive and we are not mediating, but on 
the other hand we are very interested in all of this.
    Now, simultaneously with this we have a responsibility at 
the congressional level to try to do the same thing. We have 
attempted to fulfill that responsibility with this hearing in a 
way and an earlier hearing this morning, at which we heard from 
our intelligence people a number of views, so that in a 
comprehensive way perhaps in our public statements and our 
attitudes we are helpful in this respect.
    We have also had a good visit with the Foreign Minister of 
India in the last 10 days, an extraordinary visit, unlike 
anything we have had before; two visits with President 
Musharraf in our coffees in S-116, in which members were very 
candid and so was the President in his responses.
    In other words, the volume of this activity, quite apart 
from the quality of the dialog, has picked up a good bit. My 
impression is that there are favorable responses to this. 
People are delighted that we are paying attention.
    Having said all of that, our advice had better be pretty 
good, because at the end of the day let us say they take some 
of it. We really need to be very hopeful we are on key, and 
this is going to require a depth of scholarship and 
understanding of both of those countries, where they are coming 
from, the dynamics of this sort of thing, even the degree of 
control the leaders have over all parts of their country, all 
parts of their governments.
    But you have given us, it seems to me, a pretty good 
indication today of how we might get organized, executive and 
legislative, as well as a good number of ideas that might come 
into this.
    I really do not have questions of you because I think you 
have been comprehensive in your testimony, and likewise out of 
curiosity we could ask for certain political estimates of this 
or that, but that may or may not be helpful, in the same spirit 
that you are suggesting these behind-the-scenes efforts.
    Let me finally say at the end of the day, the nuclear 
problem it seems to me is very important, for the same reasons 
you have talked about--at least some safeguards so that 
inadvertently, accidentally, people do not stumble into attacks 
and great loss of life that could have been avoided. Second, a 
building of trust over the course of time. It is my observation 
that on the Pakistani side they would still be very reticent, 
feeling that we were making intelligence intrusions or somehow 
or other on something that is extremely important to them as 
they see it in a defensive way.
    But leaving aside how they feel about it, over the course 
of time we might be able to demonstrate that there is real 
value in United States cooperation in helping secure materials, 
both the weapons types and, as Senator Biden has stressed, in 
the laboratories and elsewhere, as we are finding in our own 
homeland security, and we might modestly share with them the 
fact that we are still struggling with these problems, that we 
understand some of the consequences of our own inadequacies, 
rather than being a lecturer to them on theirs.
    But these are observations of appreciation to you for your 
testimony, likewise for a partial road map of how we might 
organize for this. And in the generous spirit that Senator 
Sarbanes started, I yield my remaining time to my colleague 
Senator Biden for any concluding comment he may have.
    Senator Biden. I have one brief question to Dr. Cohen. I 
found it reassuring and I want to believe his assessment about 
the stability in Pakistan as he explained it. But you used the 
phrase at one point ``at least for the next 5 or 6 years.'' 
What happens in 5 or 6 years?
    Dr. Cohen. You will have to buy my book. I really project--
--
    Senator Biden. I do not have any further questions.
    Dr. Cohen. I project a range of scenarios for the future 
and try and give estimates of their probability. These 
scenarios range from bad to worse.
    Senator Biden. But why 5--is it 5 or 6 years because of the 
leadership that exists in the upper ranks of the military now?
    Dr. Cohen. I think that the present regime is trying to do 
its best. If it fails, then it could be followed, after one or 
two failures, by a more radical approach, maybe even a 
totalitarian general or an Islamic radical general, or a 
populist leader.
    Senator Biden. Got you.
    Dr. Cohen. Or alternatively, Pakistan could begin to fray 
even further economically, culturally, and socially. So it 
could go in a number of directions, almost all of which are 
bad. There is no question that perhaps a generation down the 
road, Pakistan could be in an awful condition.
    On the other hand, I agree with Michael Krepon that if they 
make the right decisions, if they have help from their friends, 
if the Indians are cooperative, and India has an interest in a 
stable Pakistan in the long run, then you could see Pakistan 
emerge as it once was thought to be, a middle income, thriving, 
moderate Islamist country.
    Senator Biden. Thank you.
    The Chairman. Let me just say a word of apology to the 
committee as well as to the witnesses. I have just been advised 
that for some reason a quorum call is taking place on the 
Senate floor and as a result the vote is not going to occur 
exactly at 11:45. In fact, it is not really clear when the vote 
is going to occur. Such is the nature of our affairs, trying to 
cooperate with the leadership on the floor.
    But if there are additional questions of my colleagues or 
comments or if you have additional comments, why, please feel 
free to do that and we will take a few more minutes. Yes?
    Dr. Cohen. I have one more point that I would like to make 
with regard to the legislation concerning the aid packages, 
especially to Pakistan. When President Musharraf met President 
Bush at Camp David, President Bush announced that the aid would 
be conditional in three categories: nonproliferation, the war 
against terrorism, and democratization.
    I thought this was a remarkable departure from past policy 
in the sense that there would be presumably criteria 
established and the aid would be proportionate or relevant to 
Pakistan's performance. I have not heard or seen much of that 
since then. In fact, I am not sure if there is such a 
conditionality.
    But I would favor very much a tough-love strategy toward 
Pakistan, especially in the area of education, economic reform, 
social order, rebuilding Pakistan's civil institutions, and the 
redemocratization of Pakistan. These are in Pakistan's own 
interests and I think members of the establishment agree with 
me. If they do not perform in these areas, then we really must 
reconsider, our overall relationship with Pakistan once the war 
on terrorism ends and the dregs of al-Qaeda and the Taliban are 
wound up.
    So I favor the idea of conditionality in these different 
cones. Good performance in one cone should produce aid, perhaps 
increased aid, while lack of performance in another cone should 
lead to a reduction of aid. We should treat these issues 
separately in our aid relationship with Pakistan.
    Senator Biden. But you set one interesting condition. You 
said at least until al-Qaeda and the war on terror--but that at 
least is--I mean, you are mildly pessimistic about the 
prospects of Indian and Pakistani rapprochement. You seem 
wildly optimistic about being able to in the near term deal 
with al-Qaeda and this war on terror.
    Dr. Cohen. Well, I think as far as the Pakistan dimension 
is concerned it is not that serious a problem. Obviously, there 
are gangs of al-Qaeda wandering around and some of the 
leadership is there. But I do not see this as the kind of 
massive threat that it was before we went into Afghanistan. And 
the Pakistanis themselves have claimed that they have picked up 
500 to 600 al-Qaeda members. There were not that many to begin 
with, so I think that in a sense that aspect of the war on 
terrorism----
    Senator Biden. Including their alleged continued, or at 
least the ISI's continued, involvement with the Taliban?
    Dr. Cohen. Well, from the Pakistani perspective that is a 
separate issue. They regard the Taliban as a natural Afghan-
Pakistan force. Al-Qaeda is----
    Senator Biden. But from our perspective it is not a 
separate issue.
    Dr. Cohen. But from our perspective Taliban cannot do the 
kind of damage to us that al-Qaeda has.
    Senator Biden. Well, from our perspective Taliban, if in 
fact--I mean, you have General Jones testifying yesterday and 
in meetings I had with him in Europe that there is a need for 
an increased NATO presence to deal with the resurgence of the 
Taliban to maintain the stability of the new government that 
has finally arrived at a constitution. The implication is that, 
failing to meet that concern, the longevity of this newly 
inaugurated government and constitution is very much in 
jeopardy. And if Afghanistan fails, I do not know what that--it 
seems to me that would be an overwhelming undercutting of the 
commitment made by Musharraf on attempting to help us relative 
to terror. I do not know how you separate those two.
    Dr. Cohen. I certainly agree with that point. I did not 
mean to imply that Afghanistan was not critical to American 
policy.
    Senator Biden. What you are saying, and I will end it, is 
that the real dilemma--let me put it another way. If there is 
no al-Qaeda, if there is stability in Afghanistan and the 
Taliban was not an issue, its resurgence, then it would be 
pretty easy, it seems to me, to figure out how to correlate our 
aid in the cones that you are talking about, basically say to 
Musharraf: Look, we are going to give you x amount of dollars 
in educational aid; if in fact you do not use it and you are 
continuing to coddle the madrassas and let the Saudis and 
others come in and build more and you are not going to deal 
with it, then we are going to cutoff aid.
    But it seems to me the sine qua non here is the point that 
my colleague made: This administration has made a very clear 
decision, that whatever it takes to--at least it did initially. 
Whatever it takes to get Pakistan to cooperate in the war 
against terror, including the Taliban, we will do, including 
resisting, doing away with previous sanctions and significantly 
increasing aid.
    Dr. Cohen. The danger of that is that it does not address 
the problem of the al-Qaeda-ization of Pakistan itself.
    Senator Biden. I do not disagree with you. I am not 
disagreeing. My point is there is this fault line here, that 
everything that seems to be--all of our relationship for the 
moment is predicated on the continued assistance on the war on 
terror. We can acknowledge that that does not long-term, may 
not be the wisest policy. But short-term it sure seems to be 
the modus operandi as to how we are proceeding.
    Mr. Wisner. Senator Biden, there may be another way of 
looking at the answer that Dr. Cohen is giving you and you are 
pursuing. I agree with you completely that, with regard to 
Pakistan, the situation along the Pak-Afghan border is one of 
our top priorities. It has got to be pursued, and we need full 
Pakistani cooperation in doing all that is possible, admittedly 
inside a very complicated situation, to bring order to that 
border region.
    My own view, and having just returned from Afghanistan, is 
that you cannot be effective solely by pointing fingers and 
accusing one side perfidy. We need to use our influence with 
Islamabad and find cooperative ways to approach the tribal 
situation along the border, the movement of refugees, the 
activities of Taliban leaders, and come up really with joint 
strategies, which then leads me to----
    Senator Biden. Well, we are trying that.
    Mr. Wisner. We are, and we are on the right track, but the 
effort of conciliation must be a political decision pursued at 
high levels. It must be approached comprehensively. You have 
got drugs, you have got refugees, you have got population 
movenments; you have disaffected ISI elements.
    Senator Biden. You have got elections that are brought in.
    Mr. Wisner. But coming specifically to the question of 
conditionality in aid, I may see this just a bit differently 
than Dr. Cohen does. If I look back in the past, the history of 
the U.S.-Pakistan relationship, I am troubled by the 
volatility. We provided a lot of aid to Pakistan during the 
cold war but when that issue began to abate, we pulled back. We 
were deeply involved at the time of the Soviet invasion of 
Afghanistan; after the Soviets departed, we retreated from 
Pakistan.
    The up and down in my judgment has not served our interests 
well. We have not been able to sustain American influence with 
the Pakistani Government and in fact, because of the up and 
down course of our ties with Pakistan, we have become in the 
minds of many Pakistanis, as Dr. Cohen wisely pointed out, the 
problem as opposed to the solution.
    We need a steady relationship, of which aid is a component. 
A portion of that aid--50 percent--ought to be provided on the 
merit of the case and allocated principally by educational and 
social priorities. The balance of the assistance I would like 
to see my government set jointly goals with Pakistan--goals 
that reflect precisely the priorities we have discussed: 
terror, Afghanistan, drug movement, Indo-Pak security, end of 
cross-border terror, social goals.
    Senator Biden. But that is--you are being, as you always 
are, insightful and very diplomatic. That means that what we 
are doing is removing from conditionality to promises of help 
in the future, in other words carrots instead of sticks, 
because, consistent with what you have indicated--and I read 
your full report--consistent with the report, what you are 
really saying is that to have something steady--conditionality 
does not lend itself to having a steady relationship unless you 
parse it the way you are doing it. You are parsing it so that 
certain things remain consistent--the economic assistance, the 
humanitarian assistance, the educational assistance.
    But if you want more assistance, it is not conditioned, but 
you are saying, if we agree, if you do A we will do B. It is 
not conditioned in the sense that we are going to stop doing A 
if you do B. It is conditioned on if you do this then we will 
be inclined to do that. So that when it stops, when they do not 
do--when they continue to support the Taliban, you say, we are 
not stopping aid, we are just not continuing or we are not 
going on.
    Is that not basically what you are saying?
    Mr. Wisner. That is right.
    Senator Biden. It is an undiplomatic way of saying it.
    Mr. Wisner. But the first part, the first part of your 
statement, is that you sustain half the aid, to maintain your 
influence. For the second half, you set jointly goals that 
serve as incentives for the Pakistanis, goals they have 
participated in defining and avoid the appearance of 
imposition----
    Senator Biden. Got you.
    Mr. Wisner [continuing]. As conditions, but they jointly 
develop them.
    The Chairman. Let me interject another question. Testimony 
has been that in Pakistan there is a very negative feeling of a 
large part of the population toward the United States. It has 
sort of been left there; maybe it improves, maybe it does not. 
One of you suggested that a very strong public information 
policy--public diplomacy, however one wants to describe that--
needs to occur, and probably to continue for a long while.
    We did not discuss how the United States stands, whether it 
is the Pew Foundation conducting a poll in India, or whoever 
else, in India. What, from your expert experience in this 
thing, are the elements of public diplomacy that have some hope 
here? We held hearings in this committee, some more satisfying 
than others, about why our public diplomacy is not doing very 
well, and we acknowledge a good number of rationalizations as 
to how tough a job it is.
    Here, in these two specific countries, let us say that we 
adopted the diplomatic strategies that are being suggestedin 
this forum today. What do we do with regard to the whole 
population while this is going on with the leadership group? 
Clearly this is a tough problem for President Musharraf, or 
whoever is in the leadership of Pakistan, if his constituents 
have a very negative view of our country. It makes it very 
difficult for us to operate successfully.
    Dr. Cohen. When I first went to Pakistan in 1977 there were 
I think seven American, U.S. information centers. When the cold 
war ended most of them were closed down. What strikes me as 
astonishing is that as we face a resurgence of Islamic 
radicalism around the world--I think it is inchoate; I do not 
think there is a central direction, but it is there--we do not 
regard this as a serious issue.
    This is a war of ideas. I worked for Secretary Schultz 
toward the end of the cold war. Clearly, the Reagan 
administration thought we were in a war of ideas, not simply a 
war of guns and military power. I do not think the 
administration quite gets that yet, and the Derijian report 
makes that point also.
    In Pakistan, which is a critical ally, we have no 
information program whatsoever. There is some private effort in 
terms of bringing Pakistani scholars over, but by and large 
there is no American voice, there is no American perspective 
heard anywhere in Pakistan. In fact, if you are a Pakistani, if 
you express support for America in some way, you are criticized 
by your colleagues and peers. That is true even in the army. 
The army is very much anti-American in the sense that they are 
bitter at what they regard as our failure to support them time 
and time again. That flows in part from our cutting off of the 
military training programs here.
    So I think that we have a massive problem in terms of 
communicating with Pakistanis at the level of ideas and values. 
The round-up of Pakistanis and other Muslims in this country 
did not help it, but I think we are beyond that now and there 
is still a residual serious problem in Pakistan.
    Mr. Wisner. Senator, could I add just a word from an Indian 
perspective and make several points on public diplomacy. The 
beginning point is the posture you adopt. India today is 
looking, after some years of suspicion, at the United States as 
a potential friend and ally. We can reinforce that by the 
respect we evidence, the visits from top leaders. All of these 
catch the attention of the man in the street, just as it does 
the elite.
    But even more important is to address the issues that 
matter to Indians. They include political issues, the ones we 
have talked about this morning. But there are other issues that 
are of terrific importance, issues of trade, issues of the 
pandemic of AIDS, security cooperation, high-tech exchanges, 
and outsourcing. The United States is constructively involved 
on the questions people face.
    Third, I would argue, as Steve Cohen just did, that we are 
very wrong-headed to close our outreach centers, our old USIA 
centers--we are about to do it in Delhi--retreat behind the 
embassy walls. No one is going to have access we wish to the 
libraries and facilities, the conference centers. It seems to 
me there are ways congruent with security in which one can 
maintain such centers. I think it would be a grave error.
    But I believe that there are two additional points that 
would be telling in the Indian case. Indians dream of 
education. There are 80,000 Indian students in American 
universities and they do a terrific job here. Even if the U.S. 
Government supports a small number of scholars coming to this 
country, it catches the public imagination. It plays very well. 
Visitors from public opinion centers around India to come to 
this country within the tradition of our flows of visitors, all 
activities that were subject to greatly reduced funding and are 
very, very important.
    Finally, I think our own government can take leadership, 
our Secretaries of Education, Health, Agriculture, in bringing 
to India representatives of our universities, representatives 
of our research institutions, to create linkages with Indian 
bodies and to begin to thicken out the relationship so that the 
dialog between the United States and India is not just 
restricted to the President and the Secretary of State talking 
to the top of the Indian Government, but that Indian 
institutions all the way through have the kinds of linkages 
worthy of great nations.
    Senator Biden. A lot of that is taking place in the 
business community in the export of a considerably large number 
of American white collar jobs.
    Mr. Wisner. An important point and one, if you wish, we can 
return to.
    Mr. Krepon. Let me try and address Senator Biden's 
question, too. There are two things that we might consider to 
improve America's standing in Pakistan, which is very low. I do 
not think I agree with Steve in saying it is the worst in the 
world. It is not very good.
    One thing that might be useful would be to improve our 
standing by means of provision of services that are not well 
provided now in Pakistan. So mobile health clinics, sending 
over doctors, maybe Pakistani-American doctors, maybe joint 
teams of Pakistani, American, and Indian doctors, to open up an 
eye clinic in a village and spend 3 days there and move 
elsewhere, have the Department of Health and Human Services get 
involved. So at a very basic level, people to people, a 
different image of America comes across.
    The second suggestion is that there is now in Pakistan a 
welcome development of a private TV channel. GeoTV is the name 
of it. I know that our government makes a real effort to 
present spokespersons to Al-Jazeera. I wonder if a similar 
effort is being made for GeoTV.
    Setting up remote centers to open up Pakistan to America is 
now not an easy thing to do, just as a matter of personal 
safety. But these are two ideas that you might consider.
    I want to go back to Afghanistan because I want to try and 
give you a very different overlay on this than the one we 
typically use. Pakistan's geographical birthright is to be able 
to connect with both central Asia and the subcontinent. That is 
how it can get well. If it has good relations with the 
subcontinent and central Asia, it can become a transmission 
belt for trade, a receptor to direct foreign investment, so an 
economic overlay.
    When you talk and you interview Pakistanis about 
Afghanistan, they will say to you, as I suspect they already 
have: We need a stable Afghanistan; otherwise we cannot get to 
central Asia. Well, they have messed up Afghanistan and if they 
use the same instincts to try and get a stable Afghanistan they 
are going to continue to mess it up.
    Right now the annual trade between Pakistan and central 
Asia, five nations in central Asia, $27 million. The annual 
trade between India and Pakistan, direct trade, not through the 
gulf, one-fifth of the world's humanity, is about the same size 
as our trade to Barbados. Direct foreign investment, U.S. into 
Bermuda is 20 times more than direct U.S. foreign investment in 
Pakistan.
    If Pakistan's future is going to rise and fall on 
economics, can we overlay an economic vision for Pakistan that 
has them connecting to central Asia, where they belong, and 
connecting to the subcontinent, having normal relations with 
both these regions, which they cannot now enjoy because of 
their connectivity to Islamic radicalism?
    So that is the overlay I would present to them. That is 
where their future is.
    The Chairman. A very important suggestion and we appreciate 
it.
    The long-awaited vote has started and, with the permission 
of my colleagues, we will bring the hearing to an end, but with 
an expression of appreciation to each of you for your 
testimony, and for your forthcoming answers to our questions.
    Senator Chafee. May I make one comment before we adjourn?
    The Chairman. Yes, Senator Chafee.
    Senator Chafee. In listening to some of the testimony, I go 
back to Dr. Cohen and what he said in his prepared statement. 
That is, that the Pakistanis believe that once Afghanistan is 
stabilized and al-Qaeda mopped up the Americans will disappear, 
leaving Pakistan without a major ally. I think that is probably 
one of our major challenges, is to disavow the Pakistanis of 
this fear that once al-Qaeda is mopped up, the problem solved, 
so to speak, back come the sanctions that Chairman Lugar talked 
about and we disappear and they are left, as you say, without a 
major ally. So a sustained commitment of friendship and 
alliance.
    The Chairman. Thank you very much, Senator.
    Thank you, gentlemen.
    The hearing is adjourned.
    [Whereupon, at 12:07 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


             Additional Statement Submitted for the Record


           Prepared Statement of Senator Russell D. Feingold

    I would like to thank the chairman and ranking member for convening 
this important hearing on ``Pakistan and India: Steps, Toward 
Rapprochement. Developments in Pakistan and India have profound 
implications on U.S. national security interests. Events within and 
between Pakistan and India will contribute to the success or failure of 
the U.S. fight on terrorism, our efforts to rebuild Afghanistan and our 
objective of curtailing nuclear proliferation around the globe. I 
believe we need a thorough review of U.S. policy toward these two 
countries to ensure that we embark on the most appropriate diplomatic 
path. The stakes have never been higher.
    Terrorism is our highest national security priority at this time, 
and it is crucial that we refocus on the region that harbored the 
terrorists of September 11th. Pakistan, as a key front-line ally in the 
U.S.-led antiterrorism coalition has been essential in cracking down on 
terrorist networks, specifically al-Qaeda. However, our war on 
terrorism is far from won, and news reports indicate that Taliban and 
Islamic militants linked to al-Qaeda continue to find sanctuary in 
certain areas of Pakistan. Not only do members of this group continue 
to attack coalition forces in Afghanistan, but many believe they are 
planning more attacks on U.S. soil. In addition, many experts argue 
that a nexus exists between international terrorist networks and 
domestic Pakistani groups. Thus, not only do international terrorists 
continue to threaten the United States, but domestic forces within 
Pakistan, such as some extremist madrassas, may be breeding more 
terrorists.
    These facts on the ground require a sensible response by the U.S. 
Government. In addition to providing assistance to help the Pakistani 
Government crack down on their terrorist networks, the United States 
must do a better job at encouraging the Pakistani Government to pursue 
a moderate agenda and educational system. We must increase our public 
diplomacy efforts in Pakistan and support more professional, 
educational and cultural exchanges between our two countries to combat 
these forces of hatred.
    United States policymakers must also not forget the threat of 
nuclear proliferation as we wage the war on terror--as the two threats 
could one day go hand in hand. President Musharraf conceded on January 
23, 2004, that ``it appears'' that some Pakistani scientists were 
involved for personal financial gain in providing nuclear technology 
and knowledge to other countries, such as North Korea, Libya, and Iran. 
The implications of these statements cannot be underestimated, and I 
hope the committee will continue to address these important issues.


</pre></body></html>
